App. 1
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ROYCE C. GOUVEIA,
Petitioner-Appellee,
v.
NOLAN P. ESPINDA, Warden,
Director of the Department
of Public Safety for the State
of Hawaii; CLARE CONNORS,
Attorney General of the
State of Hawaii,
Respondents-Appellants.

No. 17-16892
D.C. No.
1:17-cv-00021SOM-KJM
OPINION

Appeal from the United States District Court
for the District of Hawaii
Susan O. Mollway, District Judge, Presiding
Argued and Submitted October 12, 2018
Honolulu, Hawaii
Filed June 12, 2019
Opinion by Judge Berzon
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY*
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Habeas Corpus
The panel affirmed the district court’s judgment
granting Royce Gouveia’s 28 U.S.C. § 2241 habeas corpus
* This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App. 2
petition challenging the trial court’s grant of a mistrial
in his Hawaii manslaughter case in which, after the
jury reached a verdict but before the verdict was announced, jurors expressed concern for their safety because of a scary-looking man in the courtroom.
The panel held that the Rooker-Feldman doctrine
does not preclude a federal district court from exercising jurisdiction under § 2241. The panel did not need
to determine precisely what level of deference is owed
to the trial court’s determination that there was manifest necessity for a mistrial. The panel held that even
under a more deferential standard, the trial court’s
manifest-necessity determination was erroneous because the trial court failed to provide any meaningful
consideration of alternatives to mistrial. The panel
concluded that the district court therefore did not err
in concluding that retrying Gouveia would violate the
Double Jeopardy Clause.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNSEL
Donn R. Fudo (argued), Deputy Prosecuting Attorney,
Honolulu, Hawaii, for Respondents-Appellants.
Peter C. Wolff, Jr. (argued), Federal Public Defender,
Honolulu, Hawaii, for Petitioner-Appellee.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
BERZON, Circuit Judge.
Jurors in Royce Gouveia’s trial saw a menacinglooking man on the prosecution side of the courtroom

App. 3
before they retired to deliberate. The jury proceeded to
deliberate and reached a verdict. Before the verdict
was announced, however, jurors expressed concern for
their safety because of the scary-looking man. All the
jurors stated that their verdict was unaffected by the
man’s presence. Nonetheless, the trial court, at the
prosecution’s request and against Gouveia’s opposition, granted a mistrial. On federal habeas review, the
district court held that there was no manifest necessity
for the mistrial, so retrying Gouveia would violate his
right not to be subjected to double jeopardy. We agree.
I
Gouveia was tried for manslaughter in Hawaii
state court for the death of Albert Meyer. See Haw. Rev.
Stat. § 707-702(1)(a). The testimony was that Gouveia
struck Meyer during an altercation, and Meyer died after hitting his head on the pavement. The presentation
of evidence concluded, both sides gave closing arguments, and the jury was sent off to deliberate.
This case turns on two notes the jury sent to the
trial court in close succession. The first informed the
court that the jury had “reached a verdict.” A second,
drafted a few minutes after the verdict message,
stated: “Concern. This morning on prosecutor’s side of
courtroom there was a man, shaved head, glaring and
whistling at defendant. We have concern for our safety
as jurors.”
After receiving the messages, the trial court gathered the attorneys and informed them about the notes.

App. 4
Explaining that it was inclined “to take no action on
this,” the trial court asked the parties what approach
they suggested. The prosecution requested that the jurors be questioned, and Gouveia’s attorney agreed.
The court then conducted individual voir dire of
each juror. Before beginning, the court asked the attorneys whether they “ha[d] any idea what this is based
on.” The prosecution noted that Meyer’s brother had
been in the courtroom that morning “with [a] shaved
head” and appeared “pretty upset.”
The trial court proceeded to question each juror.
Although a few testified that the man seemed angry
and that they were afraid for their safety, all twelve
jurors stated that the menacing-looking man’s presence had not affected their votes. The jurors gave conflicting testimony as to when the safety concern about
the shaved-headed man first came up in deliberations,
some saying at the outset, others toward the end, and
others only after the verdict was reached. One juror
stated, “Yes,” when asked whether the fear of the man
“impact[ed] other people’s decision,” but did not elaborate as to how she knew that or what the impact was.
But she, like all the others, said her own decision was
unaffected.
After questioning the jury, the trial court asked
Gouveia’s attorney whether he wanted the court to
take any additional steps; the attorney declined. The
prosecution, however, moved for a mistrial, arguing that
there was manifest necessity for a mistrial because

App. 5
some jurors had expressed safety concerns.1 According
to the prosecution, the fact that Meyer’s brother was
“associate[d] with the prosecution and the decedent side”
might have “lended more credibility to Mr. Gouveia’s
testimony as he testified.” Gouveia’s attorney opposed
the motion, stressing that all the jurors had stated that
their own votes had been unaffected by the incident,
and that no jurors had expressed to the court any concern about the individual until it was announced that
a verdict had been reached.
After a bit more discussion, the trial court granted
the mistrial motion:
I find it difficult to really believe when I . . .
apply my reason and common sense to this
that at least some of these jurors have . . .
what strikes me as a really serious concern for
their personal safety and it came up according
to, at least as I count, four or five of them, it
. . . was . . . one of the first topics of discussion
when they got back in the room and started
deliberating the case. Somebody brought it up
and they started talking about it. It frankly
beggars my reason and common sense that it
would have no bearing on the deliberations in
this case and therefore the verdict.
I’m going to grant the State’s motion for
mistrial. I’m going to find there’s manifest
1

Initially, the prosecution requested a mistrial “in an abundance of caution.” The trial court then noted, “If you’re going to
move for mistrial, you better ask me to find manifest necessity,”
after which the prosecution rephrased its motion to include a request for a manifest-necessity determination.

App. 6
necessity for such based on what I said . . .
and everything else that’s been put on the record, including my questions to counsel.
The verdict’s going to be sealed for future
purposes, if any, but obviously we’re not going
to take the verdict. I’m declaring a mistrial
and I’m finding manifest necessity for that,
because I don’t think there’s anything short of
a mistrial . . . that can cure it. The verdict’s
tainted, in my view, based on my findings.
A few weeks later, the trial court issued findings
of facts and conclusions of law to further explain its
decision. The court reasoned that “[a]lthough there
[was] no specific juror misconduct” in this case, it
would adopt “the well-established ‘harmless beyond a
reasonable doubt’ standard” for juror-misconduct claims.
Relying on that standard, the trial court found that
“the jurors’ statements that the incident did not affect
their decision-making process and/or deliberations
[were] not credible,” and reiterated its prior conclusion
that “the jury was not impartial” and that “there [was]
manifest necessity for a mistrial.”
Gouveia moved to dismiss the prosecution, contending that there was no manifest necessity for the
mistrial. The constitutional double jeopardy protection, Gouveia maintained, would be violated were he
retried. The trial court denied the motion.
When Gouveia appealed the trial court’s manifestnecessity finding, the appellate court unsealed the verdict form for purposes of the appeal. The form revealed
that the jury had unanimously found Gouveia not

App. 7
guilty. State v. Gouveia (Gouveia I), No. CAAP-140000358, 2015 WL 2066780, at *7 (Haw. Ct. App. Apr.
30, 2015). The state appellate court affirmed, with one
judge dissenting. Id. at *11; see also id. at *11–13
(Nakamura, C.J., dissenting). The Hawaii Supreme
Court granted discretionary review, but then affirmed
over one justice’s dissent. State v. Gouveia (Gouveia II),
384 P.3d 846, 852–53 (Haw. 2016); see also id. at 857
(Nakayama, J., dissenting). The state high court held
that the trial court “did not abuse its discretion in
deciding that manifest necessity existed for a mistrial
because the presumption of prejudice could not be
overcome beyond a reasonable doubt and no reasonable alternatives to a mistrial were available.” Id. at 853
(majority opinion).
Gouveia then filed a federal habeas petition. He
argued that there was no manifest necessity for a mistrial and that the jury’s verdict form, now unsealed,
precluded Hawaii from retrying him. The district court
granted the petition. Gouveia v. Espinda (Gouveia III),
No. 17-00021 SOM/KJM, 2017 WL 3687309, at *1
(D. Haw. Aug. 25, 2017). It concluded, first, that jurisdiction under 28 U.S.C. § 2254 was not appropriate,
as “Gouveia is not currently ‘in custody pursuant to the
judgment of a State court,’ ” but that it did have jurisdiction under § 2241. Id. at *5 (quoting 28 U.S.C.
§ 2254(d)). The district court then rejected the state’s
contentions that the Rooker-Feldman doctrine or
Younger abstention precluded the court from exercising jurisdiction over Gouveia’s habeas petition. Id. at
*6–7.

App. 8
On the merits, the district court determined that
the now-unsealed verdict form was not an acquittal for
purposes of double jeopardy. Id. at *10–12. The court
first recited several reasons why the trial court’s conclusion that the jurors were affected was questionable.
Id. at *14. Ultimately, the district court held that, accepting the trial court’s jury taint conclusion, Gouveia
was entitled to habeas relief. Id. at *15. Alternative
remedies for any valid concerns as existed were available, the district court reasoned, so there was no manifest necessity for a mistrial and retrying Gouveia
would violate the Double Jeopardy Clause. Id. at *15–
17.
Hawaii timely appealed, challenging the district
court’s exercise of jurisdiction as well as its decision on
the merits.
II
We begin with the jurisdictional point: The state
argues that, under the Rooker-Feldman doctrine, the
district court was barred from exercising jurisdiction
under 28 U.S.C. § 2241 over Gouveia’s habeas petition.
We have not directly addressed the precise question
whether Rooker-Feldman applies to habeas petitions
filed under § 2241, although two other circuits have
held that it does not. See Reitnauer v. Tex. Exotic Feline
Found., Inc. (In re Reitnauer), 152 F.3d 341, 343 n.8
(5th Cir. 1998); Garry v. Geils, 82 F.3d 1362, 1365 n.4
(7th Cir. 1996). Our gap on this point is understandable,

App. 9
as it is rare that we are asked to address an argument
so transparently without merit.
The Rooker-Feldman doctrine takes its name from
a pair of cases—Rooker v. Fidelity Trust Co., 263 U.S.
413 (1923), and District of Columbia Court of Appeals
v. Feldman, 460 U.S. 462 (1983)—both “brought by
state-court losers complaining of injuries caused by
state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,
284 (2005). The doctrine holds that “a federal district
court does not have subject matter jurisdiction to hear
a direct appeal from the final judgment of a state
court.” Noel v. Hall, 341 F.3d 1148, 1154 (9th Cir. 2003).
“Direct federal appellate review of state court decisions
must occur, if at all, in the Supreme Court.” Gruntz v.
County of Los Angeles (In re Gruntz), 202 F.3d 1074,
1078 (9th Cir. 2000) (en banc).
Rooker-Feldman is not a constitutional directive
but rather “a statute-based doctrine, based on the
structure and negative inferences of the relevant statutes rather than on any direct command of those statutes.” Noel, 341 F.3d at 1154–55. In particular, the
doctrine is an interpretation of two statutes: 28 U.S.C.
§ 1331, which establishes district courts’ original jurisdiction, and 28 U.S.C. § 1257, which vests jurisdiction
to review most state court decisions solely in the U.S.
Supreme Court. See Gruntz, 202 F.3d at 1078. “The
Rooker-Feldman doctrine merely recognizes that 28
U.S.C. § 1331 is a grant of original jurisdiction, and

App. 10
does not authorize district courts to exercise appellate
jurisdiction over state-court judgments, which Congress has reserved to [the Supreme] Court.” Verizon
Md. Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 644 n.3
(2002).
Because the Rooker-Feldman principle is purely
statutory, “Congress, if so minded, may explicitly empower district courts to oversee certain state-court
judgments.” Exxon Mobil, 544 U.S. at 292 n.8. Put differently, Congress may, via statute, provide federal district courts with jurisdiction to review state court
decisions as long as that jurisdiction is conferred in addition to the original jurisdiction established under
§ 1331. And Congress “has done so, most notably, in authorizing federal habeas review of state prisoners’ petitions.” Id. We have accordingly recognized that “[i]t is
well-settled that the Rooker-Feldman doctrine does not
touch the writ of habeas corpus,” as the writ is “a procedure with roots in statutory jurisdiction parallel to—
and in no way precluded by—the [Rooker-Feldman]
doctrine.” Gruntz, 202 F.3d at 1079.
Gruntz considered whether habeas review under
28 U.S.C. § 2254, covering “writ[s] of habeas corpus in
behalf of a person in custody pursuant to the judgment
of a State court,” 28 U.S.C. § 2254(a), is limited by
Rooker-Feldman. Gouveia is not currently in custody
under a state court judgment, see Gouveia III, 2017 WL
3687309, at *5–6, so the district court considered the
habeas petition under 28 U.S.C. § 2241, not under
§ 2254. But the principles underlying Gruntz still apply. Applying those principles, Rooker-Feldman does

App. 11
not preclude a federal district court from exercising jurisdiction under 28 U.S.C. § 2241, if that statute, like
§ 2254, confers jurisdiction in addition to the original
jurisdiction already conferred by 28 U.S.C. § 1331. It
does.
Section 2241 provides that “[w]rits of habeas corpus may be granted by . . . the district courts . . . within
their respective jurisdictions” for prisoners “in custody
in violation of the Constitution or laws or treaties of
the United States.” 28 U.S.C. § 2241(a), (c)(3). Relying
on this grant of jurisdiction, this court has consistently
held that § 2241 confers jurisdiction for “habeas petition[s] raising a double jeopardy challenge to a petitioner’s pending retrial in state court.” Wilson v.
Belleque, 554 F.3d 816, 821 (9th Cir. 2009).
The first case so to hold was Stow v. Murashige,
389 F.3d 880 (9th Cir. 2004). Like the case at hand,
Stow concerned a petitioner whose double jeopardy
claim had been rejected by the state supreme court. Id.
at 885. The petitioner then filed a federal habeas petition under § 2254, arguing that the state supreme
court’s conclusion was incorrect. Id. The district court
granted the petition. Id. Stow affirmed the district
court’s grant of habeas corpus but, before doing so, explained that the petitioner’s petition, “which raised a
double jeopardy challenge to his pending retrial,” was
“properly treated under § 2241,” not § 2254. Id. at 885–
87.

App. 12
We have repeatedly reaffirmed Stow’s holding.2
Stow and its progeny make clear that, as in the § 2254
habeas context considered in Gruntz, jurisdiction in
the § 2241 habeas context derives from the federal habeas statutes, not from § 1331. The upshot is that
§ 2241, like § 2254, provides “a procedure with roots in
statutory jurisdiction parallel to—and in no way precluded by—the [Rooker-Feldman] doctrine.” Gruntz,
202 F.3d at 1079.
In light of Gruntz, Hawaii acknowledges, as it
must, that Rooker-Feldman is inapplicable to federal
habeas claims filed under § 2254. But the state argues
that unlike § 2254, § 2241 does not confer jurisdiction
to review state court decisions. Why? Because § 2241
lacks the word “judgment.” Cf. 28 U.S.C. § 2254(a)
(“[A] district court shall entertain an application for a
writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws or treaties of the United States.”
2

See, e.g., Dominguez v. Kernan, 906 F.3d 1127, 1135 n.10
(9th Cir. 2018) (“A pretrial double jeopardy challenge . . . ‘is
properly brought under § 2241.’ ” (quoting Stow, 389 F.3d at 886));
Harrison v. Gillespie, 640 F.3d 888, 896 (9th Cir. 2011) (en banc)
(“Our precedent makes clear that 28 U.S.C. § 2241 is the proper
vehicle for asserting a double jeopardy claim prior to (or during
the pendency of ) a successive trial.”); Wilson, 554 F.3d at 821 (“[A]
habeas petition raising a double jeopardy challenge to a petitioner’s pending retrial in state court is properly treated as a petition filed pursuant to 28 U.S.C. § 2241.”); Hoyle v. Ada County,
501 F.3d 1053, 1058 (9th Cir. 2007) (“28 U.S.C. § 2241 . . . empowers district courts to provide habeas relief on pretrial double jeopardy challenges. . . .”).

App. 13
(emphasis added)). This argument has no merit, for
two reasons.
First, the state’s argument confuses the relationship between the two habeas corpus statutes. Section
2254 “is not itself a grant of habeas authority, let alone
a discrete and independent source of post-conviction
relief.” Frantz v. Hazey, 533 F.3d 724, 735 (9th Cir.
2008) (en banc) (quoting Medberry v. Crosby, 351 F.3d
1049, 1060 (11th Cir. 2003)).3 “Instead, it is § 2241 that
provides generally for the granting of writs of habeas
corpus by federal courts, implementing ‘the general
grant of habeas authority provided by the Constitution.’ ” Id. (quoting White v. Lambert, 370 F.3d 1002,
1006 (9th Cir. 2004)). Overlaying that general grant of
jurisdiction, § 2254 “implements and limits the authority granted in § 2241 for ‘a person in custody pursuant
to the judgment of a State court.” Id. (quoting 28 U.S.C.
§ 2254(a)). Thus, just as habeas review under § 2254 is
“a procedure with roots in statutory jurisdiction parallel
to—and in no way precluded by—the [Rooker-Feldman]
3

This conception of § 2254 accords with the history of the
habeas corpus statutes. Section 2241 codified the general grant of
habeas corpus jurisdiction conferred by Congress in 1867. See
Richard H. Fallon, Jr. et al., Hart and Wechsler’s The Federal
Courts and the Federal System 1197 (7th ed. 2015); see also Medberry, 351 F.3d at 1055. Section 2254 was added in its original
form in 1948 to add requirements “dealing specifically with challenges to custody resulting from conviction in state court.” Fallon
et al., supra, at 1197. The present § 2254, placing further constraints on federal habeas review of state court convictions, was
added as part of the Antiterrorism and Effective Death Penalty
Act of 1996. Id. at 1197–98; see also Williams v. Taylor, 529 U.S.
362, 402 (2000).

App. 14
doctrine,” Gruntz, 202 F.3d at 1079, so review under
§ 2241 too is necessarily unaffected by Rooker-Feldman.
Second, and relatedly, the state’s argument badly
misunderstands the relationship between the writ of
habeas corpus and state court judgments. A habeas
court does not review a state court judgment.4 Rather,
“[h]abeas lies to enforce the right of personal liberty;
when that right is denied and a person confined, the
federal court has the power to release him. Indeed, it
has no other power; it cannot revise the state court
judgment; it can act only on the body of the petitioner.”
Fay v. Noia, 372 U.S. 391, 430–31 (1963), overruled in
part on other grounds by Wainwright v. Sykes, 433 U.S.
72 (1977). “ ‘[T]he essence of habeas corpus is an attack
by a person in custody upon the legality of that custody,’ not necessarily a challenge to a judgment.”
Dominguez, 906 F.3d at 1137 (alteration in original)
(citation omitted) (quoting Preiser v. Rodriguez, 411
U.S. 475, 484 (1973)). For that reason, the writ does not
empower a habeas court to modify a state court judgment. See Lujan v. Garcia, 734 F.3d 917, 935 (9th Cir.
2013); Douglas v. Jacquez, 626 F.3d 501, 504 (9th Cir.
2010).
To be sure, under § 2254, a habeas court does
“oversee certain state-court judgments,” Exxon Mobil,
544 U.S. at 292 n.8 (emphasis added), by assessing, in
4

Some of our cases have been less than precise about this
point, describing § 2254 as “provid[ing] expressly for federal collateral review of final state court judgments.” Gruntz, 202 F.3d at
1079; see also, e.g., Allen v. Ornoski, 435 F.3d 946, 960 (9th Cir.
2006); Lambert v. Blodgett, 393 F.3d 943, 978 (9th Cir. 2004).

App. 15
the context of custody pursuant to a judgment, whether
those judgments “resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the
Supreme Court of the United States,” or were “based
on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding,” 28 U.S.C. § 2254(d). For that reason, “§ 2254 requires a nexus between ‘the judgment of a State court’
and the ‘custody’ the petitioner contends is ‘in violation
of the Constitution or laws or treaties of the United
States.’ ” Dominguez, 906 F.3d at 1136 (quoting 28
U.S.C. § 2254(a)). But even with that requirement,
§ 2254 petitions need not “present a challenge to the
underlying state court judgment,” as long as “the custody complained of is attributable in some way to the
underlying state court judgment.” Id. at 1137. A § 2254
petition may challenge, for example, the loss of goodtime credits, see Preiser, 411 U.S. at 487, or the revocation of parole, see Spencer v. Kemna, 523 U.S. 1, 7
(1998), even though those claims do not challenge the
underlying state court judgment.
In sum, the additional jurisdictional grant provided
by § 2241—separate and apart from the jurisdiction
conferred under § 1331—means that Rooker-Feldman
is not pertinent. Accordingly, the district court correctly held the Rooker-Feldman doctrine inapplicable
here.

App. 16
III
We turn to the merits of the double jeopardy question.
The Double Jeopardy Clause provides that “[n]o
person shall . . . be subject for the same offence to
be twice put in jeopardy of life or limb.” U.S. Const.
amend. V. The Clause embodies the principle that “the
State with all its resources and power should not be
allowed to make repeated attempts to convict an individual for an alleged offense.” Green v. United States,
355 U.S. 184, 187 (1957). And “[b]ecause jeopardy attaches before the judgment becomes final, the constitutional protection also embraces the defendant’s
‘valued right to have his trial completed by a particular
tribunal.’ ” Arizona v. Washington, 434 U.S. 497, 503
(1978) (quoting Wade v. Hunter, 336 U.S. 684, 689
(1949)).
But that principle “does not mean that every time
a defendant is put to trial before a competent tribunal
he is entitled to go free if the trial fails to end in a final
judgment.” Wade, 336 U.S. at 688. “[A] mechanical rule
prohibiting retrial whenever circumstances compel the
discharge of a jury without the defendant’s consent,”
the Supreme Court has explained, “would be too high
a price to pay for the added assurance of personal security and freedom from governmental harassment
which such a mechanical rule would provide.” Washington, 434 U.S. at 505 n.16 (quoting United States v.
Jorn, 400 U.S. 470, 479–80 (1971) (plurality opinion)).
Rather, “a defendant’s valued right to have his trial

App. 17
completed by a particular tribunal must in some instances be subordinated to the public’s interest in fair
trials designed to end in just judgments.” Wade, 336
U.S. at 689.
Recognizing these competing interests, Justice
Story wrote in a seminal double jeopardy case in 1824
that retrial may be permitted after a mistrial only
where a trial court determines that, “taking all the circumstances into consideration, there is a manifest necessity for [a mistrial], or the ends of public justice
would otherwise be defeated.” United States v. Perez,
22 U.S. (9 Wheat.) 579, 580 (1824). Perez concerned the
circumstances in which a deadlocked jury could support a trial court’s determination that there was such
“manifest necessity.” Id. at 579–80. Since then, the
same term—“manifest necessity”—has been used in “a
wide variety of cases,” beyond the deadlocked jury situation, to encapsulate the circumstances in which “any
mistrial declared over the objection of the defendant”
is permissible without triggering the double jeopardy
protection. Washington, 434 U.S. at 505–06.
Under the manifest-necessity standard, “a trial
can be discontinued when particular circumstances
manifest a necessity for so doing, and when failure to
discontinue would defeat the ends of justice.” Wade,
336 U.S. at 690. For purposes of assessing whether that
standard is met, “the key word ‘necessity’ cannot be interpreted literally; instead, . . . there are degrees of
necessity and we require a ‘high degree’ before concluding that a mistrial is appropriate.” Washington,
434 U.S. at 506. To establish a manifest necessity, “the

App. 18
prosecutor must shoulder the burden of justifying the
mistrial,” and “[h]is burden is a heavy one.” Id. at 505.
That heavy burden has not been met here, as we shall
explain.
A
Because our review proceeds under § 2241, the
deference owed to a state court under § 2254(d) is not
applicable. See Harrison, 640 F.3d at 897. Instead, we
apply the same standard of review as applied on direct
appeal. See id.
“A judicial determination of manifest necessity is
reviewed for abuse of discretion, but the level of deference varies according to the circumstances in each
case.” United States v. Chapman, 524 F.3d 1073, 1082
(9th Cir. 2008); see also Washington, 434 U.S. at 507–
09. “At one extreme are cases in which a prosecutor requests a mistrial in order to buttress weaknesses in his
evidence,” for which “the strictest scrutiny is appropriate.” Washington, 434 U.S. at 507–08. “At the other extreme is the mistrial premised upon the trial judge’s
belief that the jury is unable to reach a verdict.” Id. at
509. Similarly, “[a] trial judge properly exercises his
discretion to declare a mistrial if an impartial verdict
cannot be reached, or if a verdict of conviction could be
reached but would have to be reversed on appeal due
to an obvious procedural error in the trial.” Illinois v.
Somerville, 410 U.S. 458, 464 (1973). In those situations, “[t]he trial judge’s decision to declare a mistrial
. . . is . . . accorded great deference by a reviewing

App. 19
court.” Washington, 434 U.S. at 510. “Nevertheless, because the mistrial decision affects a constitutionally
protected right, ‘reviewing courts have an obligation to
satisfy themselves that . . . the trial judge exercised
“sound discretion” in declaring a mistrial.’ ” United
States v. Sanders, 591 F.2d 1293, 1297 (9th Cir. 1979)
(quoting Washington, 434 U.S. at 514).
Here, it is highly debatable how much deference is
owed to the trial court’s determination that there was
manifest necessity for a mistrial. To begin, there was
no deadlocked jury—the jury said it had reached a
unanimous verdict. Cf. Perez, 22 U.S. (9 Wheat.) at 580.
Nor does this appear to be a case in which, had the
jury verdict favored the prosecution and a judgment in
accord with the verdict been entered, the verdict would
have been reversible on appeal on account of potential
juror bias. Cf. Somerville, 410 U.S. at 464. Although one
juror suggested that other jurors may have been affected by the presence of Meyer’s brother, each individual juror testified that that [sic] his presence did not
affect his or her own decision. There is no indication
that Meyer’s brother spoke with, or threatened, any juror in or out of the courtroom. The jury’s note pointed
only to his “shaved head” and the fact that he was
“glaring and whistling at [Gouveia]” as the basis for
their concern. And nothing in the record indicates that
the jurors knew his connection to the trial—that is,
that he was Meyer’s brother. Nor did the presence of
Meyer’s brother provide any extrinsic information to
the jury. In short, the circumstances here appear to fall

App. 20
short of the cases in which we have reversed a conviction for alleged juror bias or taint.5
So we have here none of the paradigmatic situations in which we accord great deference to the trial
judge as to the manifest necessity for a mistrial. Still,
the Supreme Court has also indicated that a case involving potential juror bias “falls in an area where the
trial judge’s determination is entitled to special respect.” Washington, 434 U.S. at 510. But the potential
for juror bias here—as opposed to the safety concern
communicated to the court postverdict—is relatively
weak, for the reasons already discussed.6
Additionally, the Supreme Court has recognized that
the Double Jeopardy Clause “prevents a prosecutor or
5

Compare, e.g., United States v. Vartanian, 476 F.3d 1095,
1098–99 (9th Cir. 2007) (holding that a district court did not err
in dismissing a juror who had spoken to members of the defendant’s family, defense counsel, and the defendant), and United
States v. Gonzalez, 214 F.3d 1109, 1113 (9th Cir. 2000) (concluding that juror bias could be assumed where a juror “disclosed the
fact that her ex-husband, the father of her daughter, dealt and
used cocaine—the same drug and conduct at issue” in the case),
with United States v. Gonzalez, 906 F.3d 784, 797 (9th Cir. 2018)
(rejecting a juror-bias claim where the juror in question “unequivocally stated that she could evaluate all of the evidence impartially”), and United States v. Hayat, 710 F.3d 875, 885–89 (9th
Cir. 2013) (affirming a district court’s finding that a juror was not
impermissibly biased despite “several inappropriate racial and
religious comments” made by the juror during deliberations).
6
It is noteworthy as well that, as Washington stressed repeatedly, the potential bias in that case was caused by defense
counsel’s misconduct. See, e.g., 434 U.S. at 501, 512–13, 516.
Here, neither attorney has any responsibility for the behavior
that led to the mistrial.

App. 21
judge from subjecting a defendant to a second prosecution by discontinuing the trial when it appears that the
jury might not convict,” Green, 355 U.S. at 188, and so
protects “the importance to the defendant of being able,
once and for all, to conclude his confrontation with society through the verdict of a tribunal he might believe
to be favorably disposed to his fate,” Washington, 434
U.S. at 835 (quoting Jorn, 400 U.S. at 486). Closer scrutiny is therefore especially appropriate if the parties
believed an acquittal was likely forthcoming. They did.
According to the Hawaii Supreme Court, when the
mistrial was declared, it was “apparent from the record
that the parties believed the sealed verdict was ‘not
guilty.’ ” Gouveia II, 384 P.3d at 851 n.2. Immediately
before declaring the mistrial, the trial court recognized
as much, stating, “Well, it’s pretty clear to the court
what everybody thinks the verdict is based on your arguments and your motions and lack of such.” Gouveia
therefore had a significant interest seeing his case proceed to verdict—and the prosecution likewise had reason for pressing for a mistrial even if it had no actual
concern about jury bias.
How these interests should be balanced is not entirely clear. Overall, the pertinent factors tend to support considerably less deference to the trial court than
in the paradigmatic high-deference situation. But we
need not finally determine precisely what level of deference is appropriate. Even under a more deferential
standard, the trial court erred in concluding that there
was manifest necessity for a mistrial.

App. 22
B
Under a more deferential standard, for the most
part “we focus on the procedures employed by the judge
in reaching his determination” and assess whether the
trial court “(1) heard the opinions of the parties about
the propriety of the mistrial, (2) considered the alternatives to a mistrial and chose[ ] the alternative least
harmful to a defendant’s rights, [and/or] (3) acted deliberately instead of abruptly.” Chapman, 524 F.3d at
1082 (alterations in original) (quoting United States v.
Bates, 917 F.2d 388, 396 (9th Cir. 1990)).
Here, the trial court’s determination that manifest
necessity justified a mistrial fails at the second step.7
“A trial court should consider and correctly evaluate
the alternatives to a mistrial” and, “once the court considers the alternatives, it should adopt one if less drastic and less harmful to the defendant’s rights than a
mistrial.” Bates, 917 F.2d at 396; see also 6 Wayne R.
LaFave et al., Criminal Procedure § 25.2(d) (4th ed.
2015).8
7

We reject Hawaii’s contention that Gouveia waived this argument when his attorney agreed with the trial court’s assertion
that “[t]here’s no other remedy short of a mistrial that’s going to
cure this or allow us to take the verdict.” Cf. Ricketts v. Adamson,
483 U.S. 1, 8–9 (1987) (holding that a defendant may waive double jeopardy protections). As the district court correctly noted, the
Hawaii Supreme Court fully addressed the availability of reasonable alternatives and so necessarily considered the issue not
waived under state law. See Gouveia II, 384 P.3d at 856–57; see
also Gouveia III, 2017 WL 3687309, at *14 n.2.
8
The Supreme Court has suggested that a trial court need
not consider alternatives when a jury is deadlocked. See Blueford

App. 23
Consideration of potential alternatives was especially important in this case, as the trial court’s substantive conclusion that manifest necessity existed for
a mistrial was weak. This is not a case in which the
indicia of juror bias were so compelling as to cast significant doubt on the fairness of the verdict. Instead,
the trial court concluded that a mistrial was needed
because it could not “find beyond a reasonable doubt
that there was no impact on the deliberations or verdict . . . such that the verdict was not tainted”; the Hawaii appellate courts likewise endorsed the application
of this reasonable doubt standard. See Gouveia II, 384
P.3d at 854; Gouveia I, 2015 WL 2066780, at *6, 10–11.
The use of the reasonable doubt standard in this context is questionable.9 But even if use of the standard
v. Arkansas, 566 U.S. 599, 609 (2012) (“We have never required a
trial court, before declaring a mistrial because of a hung jury, to
consider any particular means of breaking the impasse. . . .”); see
also Renico v. Lett, 559 U.S. 766, 775 (2010). But these statements
apply only to deadlocked juries, and “in cases where the mistrial
is based upon something other than jury deadlock, lower courts
have continued to examine alternatives to mistrial as part of the
manifest necessity analysis.” 6 LaFave, supra, § 25.2(d).
9
Gouveia does not challenge the Hawaii courts’ use of the
reasonable doubt standard, so we do not determine its propriety.
We note, however, that the application of that standard appears
inconsistent with the Supreme Court’s admonition that “the prosecutor must shoulder the burden of justifying the mistrial if he is
to avoid the double jeopardy bar.” Washington, 434 U.S. at 505.
The Hawaii Supreme Court appears to have imported the reasonable doubt standard from the harmless error standard applicable
where a defendant claims a denial of due process or jury trial
rights because of juror or prosecutorial misconduct. See Gouveia
II, 384 P.3d at 854. But that standard is applied to protect a defendant’s constitutional rights: “[B]efore a federal constitutional

App. 24
were permissible, the trial court’s strong reliance on
the standard suggests that its belief that “the verdict
was . . . tainted” was not particularly strong. Indeed,
immediately before declaring a mistrial, the trial court
itself recognized that it was “a really, really close ruling” on whether a mistrial was necessary.
Further, the record does not indicate that the jurors knew of the scary man’s connection to the trial. At
most, some jurors surmised from the man’s location on
the prosecution side of the courtroom and his actions
that he was angry at Gouveia. But the leap from any
such surmise to antiprosecution bias because of those
actions is farfetched. If anything, one would think that
if the jurors thought the unknown man was dangerous
and might hurt them if they sided with Gouveia, they
would be biased against Gouveia, so as to avoid the
danger an acquittal might create. That obviously did
not occur, as we know both from the jurors’ attestations
that they were not affected and from the unanimous
vote to acquit.
Similarly, the trial court’s agreement with the
prosecution that the jurors’ deliberations were likely
affected by the scary man’s presence was wholly unsupported by any objective fact in the record. All
twelve jurors testified that that [sic] the presence of
Meyer’s brother did not affect their own decisions. The
trial court based its determination on a finding that all
error can be held harmless, the court must be able to declare a
belief that it was harmless beyond a reasonable doubt.” Chapman
v. California, 386 U.S. 18, 24 (1967). Here, it was the prosecution,
not the defendant, that sought a mistrial.

App. 25
twelve jurors’ testimony was not “credible.” But as the
district court noted, “nothing in the record identifies
facts supporting [the] finding that the jurors were not
believable.” Gouveia III, 2017 WL 3687309, at *14. In
particular, the trial court “ma[de] no reference to any
juror’s demeanor.” Id. “The jurors’ ability to serve impartially for the remainder of the trial is at the heart
of the [trial] judge’s determination of manifest necessity.” United States v. Bonas, 344 F.3d 945, 949 (9th Cir.
2003). If the reasons for that determination are not reflected in the record, “we have no way of reviewing
whether the district judge’s decision to declare a mistrial was a sound exercise of discretion.” Id.
Given all these circumstances, particularly careful
consideration of potential alternatives to a mistrial
was appropriate. We must ensure that the trial court
“exercise[d] a sound discretion . . . with the greatest caution, under urgent circumstances, and for very plain
and obvious causes,” as Justice Story admonished long
ago. Perez, 22 U.S. (9 Wheat.) at 580.
The trial court here did not meet this standard.
Instead, with regard to consideration of an alternative
to subjecting Gouveia to an entire second trial even
though the jury had reached a verdict (and one probably in his favor), the trial court simply asserted,
“There’s no other remedy short of a mistrial that’s going to cure this or allow us to take the verdict, correct?
It’s not like we can continue the trial . . . or I can give
them a further instruction.” The trial court’s conclusion that it could not ask the jury to deliberate further
after cautionary instructions appeared to be based on

App. 26
its belief that the jury “reached a verdict already,”
which could not be changed or reconsidered. The Hawaii appellate courts agreed with this assumption,
concluding that there were no reasonable alternatives
to a mistrial. See Gouveia II, 384 P.3d at 856–57;
Gouveia I, 2015 WL 2066780, at *10.
If, in fact, the verdict were final, as the Hawaii
courts suggested, it would constitute an acquittal for
purposes of the double jeopardy protection, and a new
trial would violate the Double Jeopardy Clause for that
reason. “Perhaps the most fundamental rule in the history of double jeopardy jurisprudence has been that ‘[a]
verdict of acquittal . . . could not be reviewed, on error
or otherwise, without putting [a defendant] twice in
jeopardy, and thereby violating the Constitution.’ ”
United States v. Martin Linen Supply Co., 430 U.S. 564,
571 (1977) (alterations in original) (quoting Ball v.
United States, 163 U.S. 662, 671 (1896)). Unlike a mistrial, after which retrial may be permitted with “manifest necessity,” an acquittal categorically precludes
retrial. See Brazzel v. Washington, 491 F.3d 976, 981–
82 (9th Cir. 2007).
But here, as the district court correctly recognized,
the undisclosed verdict form did not constitute a final
verdict for purposes of the Double Jeopardy Clause.
Gouveia III, 2017 WL 3687309, at *16. Contrary to
Gouveia’s contentions, with regard to the double jeopardy protection, “in a jury trial, an ‘acquittal’ . . . occurs
only when the jury renders a verdict as to all or some
of the charges against a defendant.” Harrison, 640 F.3d

App. 27
at 898.10 A “verdict,” in turn, “must be rendered by the
jury in open court and accepted by the court in order
to become final.” Id. at 899.11 This reasoning is in accord with the Supreme Court’s holding that a preliminary report on the jurors’ votes “lack[s] the finality
necessary to amount to an acquittal” if it is “possible
for [the] jury to revisit . . . its earlier votes.” Blueford,
566 U.S. at 608.
It is precisely because the undisclosed verdict form
in Gouveia’s case was not a final verdict of acquittal
that the Double Jeopardy Clause’s most stringent protections against retrial after an acquittal do not apply.
It cannot both be true that the verdict was final and
could not be altered and that there was nothing that
could be done to avoid a mistrial by allowing the jury
to revisit the nonfinal verdict.
As the verdict was not final, a variety of alternatives were available to the trial court. The district
10

An acquittal may also take the form of a “ruling that the
prosecution’s proof is insufficient to establish criminal liability for
an offense,” including “ ‘a ruling by the court that the evidence is
insufficient to convict,’ a ‘factual finding [that] necessarily establish[es] the criminal defendant’s lack of criminal culpability,’ and
any other ‘rulin[g] which relate[s] to the ultimate question of guilt
or innocence.’ ” Evans v. Michigan, 568 U.S. 313, 318 (2013) (alterations in original) (quoting United States v. Scott, 437 U.S. 82,
91, 98 & n.11 (1978)).
11
Applying these principles, Harrison held that the Double
Jeopardy Clause did not provide a habeas petitioner with the
right “to poll the deadlocked jury on the status of its deliberations
in his . . . capital-sentencing proceeding,” as there was no “procedural mechanism in which the jury’s preliminary determinations
[could] be embodied in a valid final verdict.” 640 F.3d at 900–01.

App. 28
court recognized one possible route the trial court
could have taken:
[T]he trial judge could have done a brief investigation into the glaring man and could then
have called the jury back into court and assured the jury that his inquiries caused him
to conclude that the jurors’ security was being
properly addressed or that there was no safety
threat. . . . The trial judge could then have
sent the jurors back into the deliberation
room to continue their deliberations armed
with these assurances. He could have told the
jurors that they could reach the same result
and even use the same verdict form if, upon
further deliberation, they came to the same
conclusion, while also providing a blank verdict form for them to use in case they changed
their decision.
Gouveia III, 2017 WL 3687309, at *16. Apart from an
unexplained, conclusory statement—“It’s not like we
can continue the trial . . . or I can give them a further
instruction”—the trial court provided no discussion of
this or any other potential alternative to a mistrial. As
the district court put it: “The admonition that all reasonable alternatives be considered requires more than
an assertion. Finding a manifest necessity is a hugely
consequential matter that requires a more searching
process.” Id. at *15.
Moreover, the trial court’s error was compounded
by its failure to consider the especially prejudicial effect a mistrial would have on Gouveia. “[I]n the final
analysis, the judge must always temper the decision

App. 29
whether or not to abort the trial by considering the importance to the defendant of being able, once and for
all, to conclude his confrontation with society through
the verdict of a tribunal he might believe to be favorably disposed to his fate.” Jorn, 400 U.S. at 486. Thus,
“once the court considers the alternatives, it should
adopt one if less drastic and less harmful to the defendant’s rights than a mistrial.” Bates, 917 F.2d at 396.
Retrying Gouveia would expose him to the exact
evils against which the Double Jeopardy Clause protects—that is, “the personal strain, public embarrassment, and expense of a criminal trial more than once
for the same offense.” Abney v. United States, 431 U.S.
651, 661 (1977). But the circumstances of Gouveia’s
mistrial were particularly prejudicial. Here, both sides
had already presented their evidence completely. So, in
a retrial, the prosecution would be fully aware the
weaknesses in its own case as well as the strength of
Gouveia’s defenses. The mistrial effectively “operated
as a post-jeopardy continuance to allow the prosecution an opportunity to strengthen its case.” Somerville,
410 U.S. at 469. The trial court gave no apparent
weight to Gouveia’s interests in this regard.
C
We are, as the district court was, “sympathetic to
the dilemma facing Gouveia’s trial judge at the time
the mistrial was declared.” Gouveia III, 2017 WL
3687309, at *16. “[A] criminal trial is, even in the
best of circumstances, a complicated affair to manage.”

App. 30
Washington, 434 U.S. at 505 n.16 (quoting Jorn, 400
U.S. at 479). Faced with jurors who expressed “a really
serious concern for their personal safety,” the trial
court suspected that the presence of the menacinglooking man could have affected the jury’s deliberations and the ultimate verdict reached.
But the Double Jeopardy Clause demands more
than mere suspicion. “[T]he . . . doctrine of manifest necessity stands as a command to trial judges not to foreclose the defendant’s option until a scrupulous exercise
of judicial discretion leads to the conclusion that the
ends of public justice would not be served by a continuation of the proceedings.” United States v. Dinitz, 424
U.S. 600, 607 (1976) (quoting Jorn, 400 U.S. at 485). By
failing to provide any meaningful consideration to alternatives to a mistrial, the trial court disobeyed that
command.
We conclude there was no manifest necessity for a
mistrial. The district court therefore did not err in concluding that retrying Gouveia would violate his double
jeopardy rights and granting the writ.
IV
The Rooker-Feldman doctrine is inapplicable to
§ 2241 petitions. And retrying Gouveia would violate
the Double Jeopardy Clause. We affirm the district
court’s grant of Gouveia’s § 2241 petition.
AFFIRMED.

App. 31
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
ROYCE C. GOUVEIA,

)
)
Petitioner,
)
vs.
)
NOLAN ESPINDA, Director )
of the Department of Public )
)
Safety for the State of
Hawaii; and DOUG CHIN, )
)
Attorney General of the
)
State of Hawaii,
)
Respondents. )

Civ. No. 17-00021
SOM/KJM
ORDER GRANTING
HABEAS PETITION
(Filed Aug. 25, 2017)

ORDER GRANTING HABEAS PETITION
I.

INTRODUCTION.

Petitioner Royce C. Gouveia is scheduled to be retried in state court for manslaughter. The Hawaii state
courts have determined that his double jeopardy rights
will not be violated by a retrial. Gouveia now seeks relief from this court, arguing that the Double Jeopardy
Clause of the federal Constitution forbids the upcoming trial.
Gouveia was tried in state circuit court for manslaughter in violation of section 707-702(1)(a) of Hawaii Revised Statutes. After the jury had reached a
verdict, but without reading the verdict, the state trial
judge declared a mistrial. The judge ruled that the jury
deliberations and verdict were tainted by the jurors’

App. 32
concern about their personal safety, given their comments about a glaring man in the audience during
trial. The trial judge sealed the verdict without opening it and concluded that a mistrial was supported by
manifest necessity. In the trial judge’s opinion, nothing
short of a mistrial could cure the effect of the menacing
man, and Gouveia’s double jeopardy rights would not
be violated by a retrial on the manslaughter charge.
On appeal, the Intermediate Court of Appeals of
the State of Hawaii (“ICA”) opened the sealed verdict
and learned that the jury had voted to acquit Gouveia
of the charges. The ICA then affirmed the trial court.
The Hawaii Supreme Court granted certiorari and also
affirmed. This habeas petition followed.
Gouveia asserts that, given the acquittal, any retrial would violate his Fifth Amendment right not to
be placed in double jeopardy. Gouveia also argues that
the mistrial declaration was not supported by manifest
necessity. This court determines that the verdict of
acquittal was not final at the time a mistrial was declared, but concludes that a mistrial was not manifestly necessary. This court therefore grants Gouveia’s
habeas petition, ruling that a retrial would violate his
federal double jeopardy rights.
II.

BACKGROUND FACTS.

Gouveia was indicted in October 2012 for allegedly
having committed manslaughter in violation of section
707-702(1)(a) of Hawaii Revised Statutes. Trial commenced in state court on Tuesday, September 3, 2013,

App. 33
with jury selection, preliminary instructions, and
opening statements. By Friday, September 6, 2013, the
jury was instructed, closing arguments were presented, and the jury began deliberations. See Docket
Sheet, available through eCourt Kō Kua on the Hawaii
State Judiciary website, www.courts.state.hi.us (input
CaseID 1PC121001474 under “Case Search” after entering eCourt Kō Kua) (last visited August 15, 2017).
In the afternoon of September 6, 2013, the jury
sent simultaneous notes to the court. In Communication No. 3 From the Jury, which indicates that it was
signed at 2:20 p.m., the jury indicated, “We reached a
verdict.” ECF No. 3, PageID # 56. Communication No.
2 From the Jury indicates that, notwithstanding being
numbered “2,” it was actually signed at 2:24 p.m., after
the later-numbered Communication No. 3 had been
signed. Communication No. 2 stated, “Concern. This
morning on prosecutor’s side of courtroom there was a
man, shaved head, glaring and whistling at defendant.
We have concern for our safety as jurors.” ECF No. 3,
PageID # 58.
The parties convened in open court to discuss the
notes. The trial judge stated:
My intention, unless counsel, you know, can
persuade me otherwise, is just to take no action on this, take the verdict, and then I’m going to do what I normally do, which is ask
them if I can come in and talk to them right
afterwards and then address this with them
basically one-on-one, meeting with them in

App. 34
private after we take the verdict and formally
stand adjourned.
ECF No. 13-3, PageID # 349.
At that point, the parties asked that the jurors be
individually voir dired about Communication No. 2.
See id. The following table is a summary of the individual juror voir dire.

Yes. (PageID #s 373
and 376)

No. (PageID # 381)

Yes. (PageID # 388)

Ms. Foster

Ms. Hanashiro

Ms. Li

Juror #7 (unidentified Yes. (PageID # 393)
but referred to as Ms.
Li when excused,
although apparently
not the same person as
the preceding juror)

Yes. Heard whistling No. Only after the verdict was A few of the jurors expressed
from prosecutor’s
reached. (PageID # 365)
concern for their safety.
side. (PageID # 369)
(PageID #s 366 and 370)

Ms. Boehm

Yes. Jurors were slightly
intimidated and concerned.
(PageID # 386)

Yes. As soon as deliberations
started for about 10 minutes.
(PageID #s 382-84);
Also brought up towards the
end. (PageID # 387)

Yes. Toward end of
deliberations for a few
minutes. (PageID # 394)

Was not concerned for herself.
(PageID # 393)

No. (PageID # 39495)

Yes, in the “middle-early” of
Was not concerned when she
No. (PageID # 390deliberations and again at the saw it. But there was concern
91)
end. (PageID # 389)
after the verdict. (PageID # 392)

No. (PageID # 383)

Yes. Had concern for own
No. (PageID # 373safety. (PageID #s 374 and 377) 74)

No. After the verdict was
reached. (PageID #s 373 and
375)

No. (PageID # 367)

Yes. In the beginning for
A few jurors said they were a
No. (PageID # 360)
about 5 minutes. (PageID #
little bit scared. (PageID # 360)
358-59)
Also, brought up after verdict
was reached. (PageID # 361)

No (PageID # 358)

Ms. Wilcox

No. (PageID # 355)

Yes. For a few minutes at the Not concerned for own safety.
end. (PageID # 354)
(PageID # 355); discussion
related to jurors’ concern for
their safety. (PageID # 356)

No (PageID # 353)

Mr. Valencia

Any Bearing on
Decision?

Was Incident Talked About Any Concern For Safety?
During Deliberations

Saw Man Glaring
and Whistling at
Gouveia?

Juror

App. 35

No (PageID # 406)

No. (PageID # 410)

No. (PageID # 417)

No. (PageID # 422)

No. (PageID # 428)

Mr. Chandler

Mr. Masuno

Ms. Mau

Ms. Kama

Ms. Chun

App. 36

Yes. Jurors were concerned.
(PageID # 426)

Yes. At the end and after
verdict reached. (PageID #
422, 425)

Yes, as soon as jurors went
into the deliberation room or
the “early-middle.” (PageID #s
430-31)

No. (PageID # 417)

No. (PageID # 42930)

Yes. Jurors were
concerned about their
safety such that it
impacted their
decision. (PageID #
426)

No. (PageID # 417)

No. (PageID # 413)

No, only after verdict reached. There was concern for the
(PageID #s 411-12)
safety of some of the female
jurors. (PageID # 414-15)
No. (PageID # 417)

No. (PageID # 407)

Yes. For a minute or so when Jurors did not seem scared.
jurors went to deliberate, and (PageID # 408)
then again after verdict had
been reached. (PageID # 407)

App. 37
At the conclusion of the individual juror voir dire,
the trial judge noted that the verdict was unknown and
asked defense counsel if Gouveia was moving for a mistrial. ECF No. 13-3, PageID # 435. Gouveia did not
make such a motion, but the prosecution did. Id.
After hearing argument, the trial judge repeated
that there was no way of knowing what the verdict
was, but indicated that it was “pretty clear . . . what
everybody thinks the verdict is.” Id., PageID # 451. He
stated that, whatever the verdict was, it was “immaterial” to his ruling on the mistrial motion. Id.
Based on the individual juror voir dire, the trial
judge determined that at least some of the jurors had
a “really serious concern for their personal safety.” He
reasoned that four or five of the jurors had stated that
the subject came up as one of the first things in the
deliberation room. Other testimony supported that impression, including Ms. Kama’s statement that the situation affected deliberations. Id., PageID # 452. The
judge stated, “It frankly beggars my reason and common sense that it would have no bearing on the deliberations in this case and therefore the verdict.” Id. He
then declared a mistrial based on “manifest necessity,”
sealing the verdict for future purposes without ever determining what the verdict actually was. Id. He did not
find credible the eleven jurors (other than Ms. Kama)
who said that the glaring man had not affected the verdict, given the statements by at least three or four of
them that they had concerns for their safety. Id.,
PageID #s 452-53.

App. 38
On October 22, 2013, the trial judge followed up
his oral ruling with written Findings of Fact, Conclusions of Law and Order Granting State’s Oral Motion
for Mistrial Based on Manifest Necessity. ECF No. 133, PageID #s 172-77. He made the following findings of
fact:
7. The Court questioned the jurors individually and both counsel for the State and for Defendant were given adequate opportunity to
question each juror regarding Communication No. 2.
8. Four jurors witnessed an individual
seated on the prosecutor’s side of the courtroom whistling and/or glaring at Defendant
(“incident”) prior to commencing deliberation.
9. Seven of the jurors indicated discussion of
the incident occurred before the verdict, ranging from within ten minutes of commencing
deliberation to the end of deliberation. At
least four of these seven jurors indicated discussion of the incident occurred at the beginning of deliberations, specifically that it was
one of the first topics discussed.
10. During the discussion of the incident
prior to verdict, the jurors who actually observed the incident communicated to the
other jurors fear for their own safety.
11. Some of the juror answers regarding
Communication No. 2 and the incident included the following:

App. 39
a. Some jurors were worried about retaliation;
b. The unidentified male’s look appeared hostile during the incident;
c.

Some jurors were concerned;

d.

Some jurors felt intimidated; and

e. The incident impacted other jurors’
decisions.
12. Although all twelve jurors indicated that
neither the incident itself nor the discussion
regarding the incident during the deliberations affected their own decision, at least one
juror indicated that the incident appeared to
have impacted the deliberation process and
decision.
13. The incident was not part of the evidence
in the case at hand.
14. The verdict was never taken for this
case. At no point during the proceedings did
the Court take, read or otherwise get any indication of the jury’s verdict.
15. The Court finds that the jurors’ statements that the incident did not affect their decisionmaking process and/or deliberations are
not credible as evidenced by the plain language of Communication No. 2 and answers of
the voir dire of each individual juror.
16. The Court further finds that the concern
for personal safety as expressed by the jurors
had an impact on the jurors’ decisions based

App. 40
on the totality of the circumstances present
and thus its effect on the subsequent verdict
was not harmless beyond a reasonable doubt.
ECF No. 13-3, PageID #s 173-75.
The trial judge concluded that, although no juror
said that the glaring man had affected his or her own
decisionmaking process, “reason and common sense
dictates that the incident did have an effect on the deliberations hence the impartiality of the jurors, which
[wa]s not harmless beyond a reasonable doubt.” Id.,
PageID # 176. Accordingly, the trial judge ruled that
the jury had not impartially deliberated on a verdict.
Id. The trial judge stated that there was no remedy
short of declaring a mistrial “as neither a continuance
nor a further jury instruction would appropriately address the issue of an impartial jury and its subsequent
tainted verdict.” Id. He said that the bar on double
jeopardy did not preclude Gouveia’s retrial because,
based on the totality of the circumstances, there was a
“manifest necessity” for the mistrial, which he defined
as a sudden and overwhelming emergency beyond the
control of the court that was unforeseeable and made
it no longer possible to conduct the trial or to reach a
fair result. Id., PageID # 177.
On December 19, 2013, following the mistrial declaration, the trial court denied Gouviea’s [sic] motion
to dismiss the charges based on double jeopardy. See
Appeal From the Order Denying Motion to Dismiss for
Violation of Double Jeopardy on December 19, 2013. ECF
No. 13-3, PageID # 148. Gouveia appealed, arguing in

App. 41
his Opening Brief to the ICA that (1) the trial court
had erred in declaring a mistrial (PageID #s 160-66);
and (2) the trial court had erred in denying the motion
to dismiss based on the violation of Gouveia’s double
jeopardy rights under the United States and Hawaii
constitutions (PageID #s 166-67).
On April 30, 2015, the ICA, in a 2-1 decision, affirmed the trial court’s rulings, holding that, because
the trial judge had not abused his discretion in finding
a manifest necessity to declare a mistrial, Gouveia’s
constitutional right to be free of double jeopardy would
not be implicated in any retrial. See Hawaii v. Gouveia,
135 Haw. 219, 348 P.3d 496, 2015 WL 2066780 (Ct. App.
Apr. 30, 2015). The ICA unsealed the verdict, in which
the jury had found Gouveia not guilty. 2015 WL
2066780, *7; ECF No. 8, PageID # 104 (copy of verdict).
On July 2, 2015, Gouveia sought a writ of certiorari from the Hawaii Supreme Court. See ECF No. 133, PageID # 228. Gouveia again argued that the trial
court had erroneously granted the motion for mistrial.
PageID #s 232-235. He contended, “As previously argued, the trial court’s finding of manifest necessity was
erroneous. Therefore the denial of Gouveia’s Motion to
Dismiss for Violation of Double Jeopardy and the ICA’s
ruling affirming the denial were erroneous.” PageID
# 235.
The Hawaii Supreme Court granted certiorari. See
2015 WL 4756475 (Haw. Aug. 10, 2015). On October 26,
2016, the Hawaii Supreme Court affirmed in a 4-1 decision. See 139 Haw. 70, 384 P.3d 846 (2016).

App. 42
On January 18, 2017, Gouveia filed the present petition. See ECF No. 1.
III. STANDARD OF REVIEW.
Gouveia originally requested relief under the Antiterrorism and Effective Death Penalty Act, 28 U.S.C.
§ 2254(d), which provides:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim –
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d).
Respondents correctly argue (and Gouveia concedes) that § 2254(d) is inapplicable because Gouveia
is not currently “in custody pursuant to the judgment
of a State court.” There is no judgment against him at
all. Instead, his case is set to be retried.
But while the absence of a state judgment renders
§ 2254 inapplicable, it does not leave Gouveia without

App. 43
a federal avenue for challenging his retrial. This court
reviews Gouveia’s petition under 28 U.S.C. § 2241,
which provides federal courts with a general grant of
habeas authority. See Frantz v. Hazey, 533 F.3d 724,
735 (9th Cir. 2008) (en banc).
An example of precisely this approach is found in
Stow v. Murashige, 389 F.3d 880, 885 (9th Cir. 2004), a
case that involved the present judge and the same attorney for a petitioner. In Stow, a double jeopardy
claim had similarly been asserted under § 2254. Noting that the petitioner was not “in custody pursuant to
the judgment of a State court” at the time he filed his
petition, the Ninth Circuit stated that the threshold
requirement for § 2254 had not been satisfied. Id. Instead of denying the § 2254 petition on that basis, the
Ninth Circuit recognized that the petitioner had raised
a double jeopardy challenge to his retrial that could be
“properly treated under § 2241,” which allows for pretrial habeas challenges. Id. at 885 and 888; accord Harrison v. Gillespie, 640 F.3d 888, 896 (9th Cir. 2011)
(“Our precedent makes clear that 28 U.S.C. § 2241 is
the proper vehicle for asserting a double jeopardy
claim prior to (or during the pendency of ) a successive
trial.”). This court construes Gouveia’s § 2254 petition
as a § 2241 petition. This court has allowed supplemental briefing to alleviate any possible prejudice to
Respondents relating to consideration of Gouveia’s habeas petition as one under § 2241.
Section 2241 does not require a petitioner to be in
custody pursuant to a state judgment, but it does require a petitioner to be in custody. Citing Wilson v.

App. 44
Belleque, 554 F.3d 816, 821 (9th Cir. 2009), which noted
that “ ‘custody’ is a jurisdictional prerequisite to habeas review under § 2241(c)(3),” Respondents argue
that Gouveia is not “in custody” such that § 2241 applies. See ECF No. 18, PageID # 573-74. This court is
not persuaded.
Gouveia is on “supervised release” in the state system, which, unlike “supervised release” in the federal
system, occurs pretrial. Gouveia is, in essence, equivalent to a federal defendant who is subject to pretrial
release conditions monitored by a United States Pretrial Services Officer.
As Belleque recognizes, “custody” is defined
broadly and “has not been restricted to situations in
which the applicant is in actual, physical custody.” Id.
at 822 (quotation marks and citation omitted). Instead,
the “custody” requirement is satisfied when there is a
“significant restraint” on a person’s liberty that is not
shared by the public generally. Id. The Ninth Circuit
has noted that the custodial requirement has been met
in cases involving prisoners released on parole, on
their own recognizance, and free on bail. Id.
It is undisputed that Gouveia must comply with
restrictive conditions. See ECF No. 16-1, PageID #s
495-96. These conditions govern where he may reside,
with whom he may have contact, his consumption of
alcohol, his attendance at substance abuse treatment
at his expense, employment, an extradition waiver,
and his possession of dangerous weapons, firearms, or
ammunition. Id., PageID #s 497, 500-01. These are

App. 45
substantial conditions that are not imposed on the
public generally. The totality of the conditions renders
Gouveia in “custody” for purposes of § 2241.
A petition under § 2241, unlike one under § 2254,
is not subject to the heightened standards set forth in
28 U.S.C. § 2254(d). Stow, 389 F.3d at 886. Habeas relief is proper under § 2241 when the petitioner shows
that a retrial would violate his or her Fifth Amendment right against double jeopardy. The § 2241 petitioner need not show that the state court decision was
contrary to or an unreasonable application of clearly
established federal law, as required by § 2254(d). Id. at
888. In examining Gouveia’s petition under § 2241,
this court therefore focuses on whether his double jeopardy right would be violated by the scheduled retrial.
IV. THERE IS NO JURISDICTIONAL, PROCEDURAL, OR OTHER HURDLE TO THIS
COURT’S CONSIDERATION OF THE DOUBLE JEOPARDY ISSUE.
A. The Rooker-Feldman Doctrine is Inapplicable.
In its Supplemental Memorandum of July 31,
2017, Respondents argue that this court lacks jurisdiction pursuant to the Rooker-Feldman doctrine. See
ECF No. 18. That argument lacks merit.
As a general principle, this court may not exercise
appellate jurisdiction over state court decisions. District of Columbia Court of Appeals v. Feldman, 460 U.S.
462, 482-86 (1983); Rooker v. Fidelity Trust Co., 263

App. 46
U.S. 413, 415-16 (1923). This rule, commonly known as
the Rooker-Feldman doctrine, bars a losing party in
state court from seeking what amounts to appellate review of the state-court judgment in federal court based
on the losing party’s claim that the state judgment itself violates the loser’s federal rights. See Bennett v.
Yoshina, 140 F.3d 1218, 1223 (9th Cir. 1998).
However, it is well settled that the RookerFeldman doctrine is inapplicable to cases seeking habeas corpus relief. See In re Gruntz, 202 F.3d 1074,
1079 (9th Cir. 2000) (“It is well-settled that the RookerFeldman doctrine does not touch the writ of habeas corpus.”); Martin v. Virga, 2012 WL 1622663, *2 (N.D. Cal.
May 9, 2012) (“regardless of the Rooker-Feldman doctrine, a federal court has jurisdiction to consider a habeas corpus petition which, in effect, is a challenge to
the final judgment of a state court in a criminal action”).
B. Younger Abstention is Inapplicable.
Respondents’ Supplemental Memorandum also
argues that this court should abstain from this matter
pursuant to Younger v. Harris, 401 U.S. 37 (1971),
which “forbids federal courts from unduly interfering
with pending state court proceedings that implicate
important state interests.” Potrero Hills Landfill, Inc.
v. City of Solano, 657 F.3d 876, 881 (9th Cir. 2011)
(quoting Middlesex Cnty. Ethics Comm. v. Garden
State Bar Ass’n, 457 U.S. 423, 432 (1982) (quotation
marks omitted)). This argument is also unpersuasive.

App. 47
In Younger, the Supreme Court held that a federal
court may not interfere with a pending criminal prosecution absent extraordinary circumstances. Logan v.
United States Natl. Ass’n, 722 F.3d 1163, 1167 (9th Cir.
2013). This principle has been extended to interference
with some civil cases. Id. Younger abstention applies
when there is a state proceeding that is (1) ongoing; (2)
implicates important state interests; and (3) provides
an adequate opportunity to raise federal questions;
and (4) when the federal action would enjoin the state
proceeding or have the practical effect of doing so. Id.
But a double jeopardy claim is an exception to the
Younger abstention doctrine. Wilson v. Czerniak, 355
F.3d 1151, 1157 (9th Cir. 2004) (“double jeopardy
claims present an exception to the general rule requiring federal courts to abstain from interfering with
pending state proceedings”); Mannes v. Gillespie, 967
F.2d 1310, 1312 (9th Cir. 1992) (same); Schillaci v. Peyton, 328 F. Supp. 2d 1103, 1105 (D. Haw. 2004) (same).
Accordingly, Younger abstention is inapplicable.
C. Gouveia Exhausted His Double Jeopardy
Claim.
“As a prudential matter, courts require that habeas petitioners exhaust all available judicial and administrative remedies before seeking relief under
§ 2241.” Ward v. Chavez, 678 F.3d 1042, 1045 (9th Cir.
2012). Citing Cooper v. Neven, 641 F.3d 322, 326-27
(9th Cir. 2011), Respondents argue that Gouveia failed
to exhaust his double jeopardy claim by presenting it

App. 48
to the highest court of Hawaii. See ECF No. 18, PageID
# 574. This court disagrees.
Gouveia filed a motion to dismiss on Hawaii and
federal double jeopardy grounds with the trial court.
When the trial court denied that motion, he appealed
that denial to the ICA, contending that his Hawaii and
federal rights to be free of double jeopardy had been
violated and that the trial court had abused its discretion in determining the mistrial was supported by
manifest necessity. See Gouveia, 2015 WL 2066780, at
*11. After the ICA affirmed, Gouveia sought a writ of
certiorari from the Hawaii Supreme court, arguing
that the ICA ruling was erroneous. ECF No. 13-3,
PageID # 235 (“As previously argued, the trial court’s
finding of manifest necessity was erroneous. Therefore,
the denial of Gouveia’s Motion to Dismiss for Violation
of Double Jeopardy and the ICA’s affirming the denial
were erroneous.”). Gouveia properly exhausted his
Fifth Amendment double jeopardy claim.
This court does not agree with Respondents that
Gouveia failed to properly exhaust his remedies because he did not present the “operative facts” to the
Hawaii Supreme Court. See ECF No. 18, PageID # 57577. Respondents make no suggestion that Gouveia
failed to present the “operative facts” to the ICA. Id. In
fact, Gouveia expressly argued to the ICA with references to relevant facts that the mistrial declaration
was not supported by manifest necessity and that the
trial court had erroneously denied Gouveia’s motion to
dismiss on state and federal double jeopardy grounds.
See ECF No. 13-3, PageID # 165-67 (arguing that the

App. 49
verdict was untainted, that the trial court let the jury
reach a verdict but refused to take it, and that retrial
was barred because the mistrial declaration was not
supported by manifest necessity).
In his application for a writ of certiorari from the
Hawaii Supreme Court, Gouveia argued that each juror had been impartial in his or her decisionmaking
process and that the jurors’ individual verdict determinations had not been improperly influenced. See ECF
No. 13-3, PageID #s 228, 234. Gouveia then relied on
Chief Judge Craig Nakamura’s dissent in the ICA decision. See id., PageID # 235. That dissent stated, “In
my view, the Circuit Court of the First Circuit (Circuit
Court) abused its discretion in concluding that manifest necessity existed for a mistrial.” Hawaii v.
Gouveia, 2015 WL 2066780, *11 (Ct. App. Haw. Apr. 30,
2015). Chief Judge Nakamura noted that the “jurors’
expression of concern for their personal safety due to
the incident did not automatically or necessarily mean
that the jurors would be incapable of rendering a fair
and impartial decision.” 2015 WL 2066780 at *13.
Chief Judge Nakamura disagreed with the trial judge’s
determination of manifest necessity, which was based
on the jurors’ expressed concerns for their personal
safety. Id. at *12 to *13. The certiorari application also
argued that, because manifest necessity was lacking,
reprosecution was barred by double jeopardy and that
the trial court had erroneously denied Gouveia’s motion to dismiss based on double jeopardy grounds. ECF
No. 13-3, PageID # 235. Under these circumstances, it
cannot be said that Gouveia failed to adequately raise

App. 50
to the Hawaii Supreme Court the very double jeopardy
claim he raises here.
V.

DOUBLE JEOPARDY ISSUE.
A. Legal Background.
1. The Double Jeopardy Clause Prohibits a Retrial After an Acquittal.

In relevant part, the Fifth Amendment to our nation’s Constitution, known as the Double Jeopardy
Clause, declares “[N]or shall any person be subject for
the same offence to be twice put in jeopardy of life or
limb.” This Double Jeopardy Clause provides three related protections: (1) it prohibits a second prosecution
for the same offense after acquittal; (2) it prohibits a
second prosecution for the same offense after conviction; and (3) it prohibits multiple punishments for the
same offense. See United States v. Wilson, 420 U.S. 332,
343 (1975). At issue here is the first of these protections, which the Supreme Court in United States v.
Martin Linen Supply Co., 430 U.S. 564, 571 (1977),
characterized as “[p]erhaps the most fundamental rule
in the history of double jeopardy jurisprudence.”
The policy behind the Double Jeopardy Clause “is
the concern that permitting the sovereign freely to
subject the citizen to a second trial for the same offense
would arm Government with a potent instrument of
oppression.”
The Clause, therefore, guarantees that the
State shall not be permitted to make repeated

App. 51
attempts to convict the accused, “thereby subjecting him to embarrassment, expense and
ordeal and compelling him to live in a continuing state of anxiety and insecurity as well as
enhancing the possibility that even though innocent he may be found guilty.”
Martin Linen, 430 U.S. at 569 (quoting Green v. United
States, 355 U.S. 184, 187-188 (1957)); see United States
v. Bates, 917 F.2d 388, 392 (9th Cir. 1990) (“Criminal
defendants have a right to have the jury first impaneled to try them [sic] reach a verdict.”). The Supreme
Court has noted that “the protection of the Double
Jeopardy Clause by its terms applies only if there has
been some event, such as an acquittal, which terminates the original jeopardy.” Richardson v. United
States, 468 U.S. 317, 325 (1984).
The Double Jeopardy Clause’s protection against
retrial for the same offense was at issue in Ball v.
United States, 163 U.S. 662, 671 (1896), which involved
a murder charge brought against three men. A jury
found two of the defendants guilty but acquitted the
third, Millard F. Ball. The trial court discharged Ball
and judged the other two defendants guilty, sentencing
them to death. Id. at 664. The convictions of the two
defendants were reversed on appeal because the indictment was insufficient. Id. at 664-65. Despite Ball’s
acquittal in the first trial, all three defendants were
reindicted. Over objections by all of the defendants
based on double jeopardy, all three were then retried
and convicted of murder. Id. at 665-66. The Supreme
Court held that, because Ball had already been

App. 52
acquitted, his retrial violated the Double Jeopardy
Clause. Id. at 669-71. The retrial of the other two defendants, by contrast, did not violate the Double Jeopardy Clause. Id. at 672.
Martin Linen also involved the first double jeopardy protection. After the jury was deadlocked and discharged, the trial court entertained motions for
judgment of acquittal, then entered judgments of acquittal. 430 U.S. at 565-67. The issue before the Supreme Court was whether the government could
appeal the judgments of acquittal. The Court began its
examination of the issue by noting that the Double
Jeopardy Clause was implicated “only when the accused has actually been placed in jeopardy.” Id. at 569.
Jeopardy attaches when the jury is empaneled and
sworn, or, in the case of a bench trial, when the judge
begins to receive evidence. Id. The Supreme Court
noted that the Double Jeopardy Clause was not implicated when a government appeal would not lead to successive prosecutions. The government could, for
example, appeal a post-conviction dismissal of an indictment, as a reversal would merely reinstate the conviction. Id. at 570. However, when a judgment of
acquittal has issued, a reversal on appeal would require a new trial, or at least some other proceeding devoted to the resolution of factual issues going to the
elements of the offense charged. Such a retrial would
violate the Double Jeopardy Clause. Id.
The Supreme Court further explained in Fong Foo
v. United States, 369 U.S. 141 (1962), that even an erroneous acquittal prevents a retrial. In Fong Foo, the

App. 53
trial court directed the jury to return a verdict of acquittal because of prosecutorial misconduct and/or a
lack of credible testimony. After a formal judgment of
acquittal was entered, the government appealed, arguing that the judgment of acquittal should be vacated
and the case retried. The First Circuit, concluding that
the trial judge had not had the authority to direct a
judgment of acquittal, set aside the acquittal and ordered a retrial. The Supreme Court reversed. Because
the defendants had been tried under a valid indictment in a court with subject matter jurisdiction, and
because the trial did not terminate before the entry of
the judgment of acquittal, the Supreme Court held
that, regardless of any trial court error in directing a
judgment of acquittal for the defendants, they could
not be retried without violating the Double Jeopardy
Clause. Id. at 143.
2. The Double Jeopardy Clause Prohibits a Retrial When A Mistrial Has
Been Declared After Jeopardy Attaches Unless the Defendant Consents or the Mistrial Determination
is Supported by Manifest Necessity.
“Because jeopardy attaches before the judgment
becomes final, the constitutional protection also embraces the defendant’s valued right to have his trial
completed by a particular tribunal.” Arizona v. Washington, 434 U.S. 497, 503 (1978) (quotation marks and
citation omitted). The Supreme Court has recognized
that there are multiple “circumstances that may make

App. 54
it necessary to discharge a jury before a trial is concluded, and because those circumstances do not invariably create unfairness to the accused, his valued right
to have the trial concluded by a particular tribunal is
sometimes subordinate to the public interest in affording the prosecutor one full and fair opportunity to present his evidence to an impartial jury.” Id. at 505. “If a
case is dismissed after jeopardy attaches but before the
jury reaches a verdict, a defendant may be tried again
for the same crime only in two circumstances: (1) if he
consents to the dismissal; or (2) if the district court determines that the dismissal was required by “ ‘manifest
necessity.’ ” United States v. Bonas, 344 F.3d 945, 948
(9th Cir. 2003).
Given the importance of a person’s right to be free
of double jeopardy, a prosecutor must shoulder the
“heavy burden” of demonstrating a “manifest necessity” justifying a mistrial over the objection of a defendant in order to retry that defendant without violating
the Double Jeopardy Clause. Id.; United States v. Dinitz, 424 U.S. 600, 606-07 (1976). The words “manifest
necessity” “do not describe a standard that can be applied mechanically or without attention to the particular problem confronting the trial judge.” Arizona, 434
U.S. at 506.
The Supreme Court has long recognized the trial
court’s discretion in making the manifest necessity determination:
We think, that in all cases of this nature, the
law has invested Courts of justice with the

App. 55
authority to discharge a jury from giving any
verdict, whenever, in their opinion, taking all
the circumstances into consideration, there is
a manifest necessity for the act, or the ends of
public justice would otherwise be defeated.
They are to exercise a sound discretion on the
subject; and it is impossible to define all the
circumstances, which would render it proper
to interfere. To be sure, the power ought to be
used with the greatest caution, under urgent
circumstances, and for very plain and obvious
causes; and, in capital cases especially, Courts
should be extremely careful how they interfere with any of the chances of life, in favour
of the prisoner. But, after all, they have the
right to order the discharge; and the security
which the public have for the faithful, sound,
and conscientious exercise of this discretion,
rests, in this, as in other cases, upon the responsibility of the Judges, under their oaths
of office.
United States v. Perez, 22 U.S. 579, 580, 1824 WL 2694,
at *1 (1824).
The degree of deference a trial judge has to declare
a mistrial varies:
The judge’s decision should be strictly scrutinized when there is reason to believe that the
prosecutor is using the superior resources of
the State to harass or to achieve a tactical advantage over the accused. At the other extreme, great deference should be accorded a
trial judge’s decision to discharge a jury which
appears to be deadlocked.

App. 56
United States v. Sanders, 591 F.2d 1293, 1296 (9th Cir.
1979) (quotation marks and citations omitted). “A trial
judge’s decision to declare a mistrial because of possible juror bias is also deserving of great deference.” Id.
at 1297. “Nevertheless, because the mistrial decision
affects a constitutionally protected right, reviewing
courts have an obligation to satisfy themselves that
the trial judge exercised sound discretion in declaring
a mistrial.” Id. (quotation marks, alterations, and citations omitted); accord Arizona, 434 U.S. at 514 (“reviewing courts have an obligation to satisfy themselves
that . . . the trial judge exercised ‘sound discretion’ in
declaring a mistrial”).
It is with the legal backdrop of all the authorities
cited earlier in this order that this court turns to
Gouveia’s specific arguments.
B. Gouveia Does Not Establish That This
Court Should Treat His Sealed Verdict
As a Final Acquittal.
The main focus of Gouveia’s habeas petition is his
argument that, because the jury reached a unanimous
determination that he was not guilty of the offense
charged, he was acquitted for double jeopardy purposes. Respondents point to the failure of the trial
court to receive the verdict as critical to this analysis.
This court rules that when a verdict is not received by
a trial court, that verdict, even when it is an acquittal,
does not necessarily trigger the protection of the Double Jeopardy Clause.

App. 57
The court recognizes that “what constitutes an ‘acquittal’ is not to be controlled by the form of the judge’s
action.” Martin Linen, 430 U.S. at 571. Instead,
whether a ruling is an acquittal turns on “whether the
ruling of the judge, whatever its label, actually represents a resolution, correct or not, of some or all of the
factual elements of the offense charged.” Id. at 571; accord Sanabria v. United States, 437 U.S. 54, 71 (1978)
(defining “acquittal” as “a resolution, correct or not, of
some or all of the factual elements of the offense
charged”). In other words, an acquittal encompasses
“any ruling that the prosecution’s proof is insufficient
to establish criminal liability for an offense.” Evans v.
Michigan, 568 U.S. 313, 318 (2013). Under the circumstances presented here, Gouveia does not show that
the verdict in his case was a final determination that
he was innocent or that the prosecution failed to satisfy all of the elements of the manslaughter charge.
Blueford v. Arkansas, 566 U.S. 599, 132 S.Ct. 2044
(2012), is instructive. In Blueford, a one-year-old boy
suffered fatal head trauma while at home with his
mother’s boyfriend, Blueford. 132 S. Ct. at 2048.
Blueford was charged with capital murder and the
lesser-included offenses of first-degree murder, manslaughter, and negligent homicide. Id. A few hours into
the deliberations, the jury sent a note that asked what
would happen if it could not agree on a charge. The
court called the jury back into the courtroom, instructed the jury to deliberate further pursuant to Allen v. United States, 164 U.S. 492 (1896), and sent the
jury back to deliberate. About 30 minutes later, the
jury sent out another note, this one stating that it

App. 58
could not agree “on any one charge in this case.” 132
S. Ct. at 2049. The court then summoned the jury back
into court and asked the foreperson to disclose the
votes on each offense. The foreperson indicated that
the jury had unanimously agreed that Blueford was
not guilty with respect to the capital murder and firstdegree murder charges, but was divided nine to three
on the manslaughter charge. The foreperson told the
court that the jury had not voted on the negligent homicide charge. 132 S. Ct. at 2049. The court then gave
another Allen charge and sent the jury back to deliberate. When the jury could not reach a verdict, the court
declared a mistrial. Id.
Citing the foreperson’s statement in open court
that the jury had unanimously agreed to acquit
Blueford of the capital murder and first-degree murder
charges, Blueford sought dismissal of those charges on
double jeopardy grounds. Id. The Supreme Court determined that the “foreperson’s report was not a final
resolution of anything.” 132 S. Ct. at 2050. The continuation of deliberations demonstrated that the report
could not have been final. Id. The Supreme Court gave
an example:
A jury enters the jury room, having just been
given these instructions. The foreperson decides that it would make sense to determine
the extent of the jurors’ agreement before discussions begin. Accordingly, she conducts a
vote on capital murder, and everyone votes
against guilt. She does the same for firstdegree murder, and again, everyone votes
against guilt. She then calls for a vote on

App. 59
manslaughter, and there is disagreement.
Only then do the jurors engage in a discussion
about the circumstances of the crime. While
considering the arguments of the other jurors
on how the death was caused, one of the jurors
starts rethinking his own stance on a greater
offense. After reflecting on the evidence, he
comes to believe that the defendant did knowingly cause the death -- satisfying the definition of first-degree murder. At that point,
nothing in the instructions prohibits the jury
from doing what juries often do: revisit a prior
vote.
132 S. Ct. at 2051.
Had this case been in federal court, the verdict
clearly would not have been final for double jeopardy
purposes before its contents were known to the trial
judge and parties. The Ninth Circuit has held:
Rule 31(d) [of the Federal Rules of Criminal
Procedure] grants the judge or any party the
absolute right to have the jury polled after it
has returned its verdicts. Although their jury
room votes form the basis of the announced
verdict, the jurors remain free to dissent from
the announced verdict when polled. In short,
a jury has not reached a valid verdict until deliberations are over, the result is announced
in open court, and no dissent by a juror is registered.
United States v. Nelson, 692 F.2d 83, 84-85 (9th Cir.
1982) (internal citations and quotation marks omitted); accord Harrison v. Gillespie, 640 F.3d 888, 899

App. 60
(9th Cir. 2011) (en banc) (“the verdict must be rendered
by the jury in open court and accepted by the court in
order to become final”); United States v. Boone, 951 F.2d
1526, 1532 (9th Cir. 1991) (“A verdict is returned when
it is given by the jury to the judge in open court.”);
3 C. Wright and S Welling, Fed. Practice and Procedure, § 517 at 52 (2011) (“A verdict is valid and final
when the deliberations are over, the result is announced in open court, and no juror registers dissent.”).
In federal court proceedings, when a poll “reveals
a lack of unanimity, the court may direct the jury to
deliberate further or may declare a mistrial and discharge the jury.” Fed. R. Crim. P. 31(d).
Even if a jury is not polled, a juror could presumably announce in open court his or her disagreement
with other jurors, thereby preventing a verdict from
being final. The jury could then be sent back to continue deliberations.
Hawaii law is similar. Rule 31(c) of the Hawaii
Rules of Penal Procedure provides:
When a verdict is returned and before it is recorded, the jury shall be polled at the request
of any party or upon the court’s own motion.
If upon the poll there is not unanimous concurrence, or there is not concurrence by the
number of jurors stipulated to as being necessary for returning a verdict, the jury may be
directed to retire for further deliberations or
may be discharged.

App. 61
The purpose of Hawaii’s Rule 31(c) is to assure the
court and the parties that a unanimous verdict has
been reached and to give each juror the opportunity to
indicate assent to the verdict in open court. See Hawaii
v. Uyesugi, 100 Haw. 442, 457, 60 P.3d 843, 858 (2002);
see also Hawaii v. Yamada, 99 Haw. 542, 562, 57 P.3d
467, 487 (2002) (“Criminal defendants are entitled to a
unanimous verdict under the Hawai’i Constitution and
pursuant to court rule.”). As illustrated by Hawaii v.
Keaulana, 71 Haw. 81, 83, 784 P.2d 328, 329 (1989), jurors in Hawaii courts have actually indicated during
polling that verdicts reached were not unanimous, resulting in continued deliberations. This demonstrates
that even though the jury in the present case had
unanimously agreed to acquit Gouveia and had informed the court that it had reached a verdict, that decision was not yet a final acquittal for double jeopardy
purposes under Hawaii law, as jurors could still have
changed their minds.
Although not a case involving Hawaii law, Durall
v. Quinn, 2007 WL 1574121 (W.D. Wa. May 29, 2007),
is helpful to the present discussion. Durall is a federal
case flowing from a case in Washington’s state court in
which a jury deliberated and informed the court that
it had reached a decision. Before the verdict was disclosed to the court, the defense alleged juror misconduct. The court then held a hearing and decided to
replace one of the jurors with an alternate because the
juror had been told by a courthouse security officer the
officer’s views of Durall’s credibility. The verdict form
was then sealed and later destroyed. The jury, with an

App. 62
alternate, deliberated anew and reached a guilty verdict. Id. at *10. Durall sought habeas relief under 28
U.S.C. § 2254, arguing that the second verdict violated
the Double Jeopardy Clause. The federal district court
noted that the last reasoned decision by Washington’s
state courts had determined that the jury’s initial,
sealed verdict was not a “final verdict” that terminated
Durall’s jeopardy. Id. at *6. The federal district court
determined that that decision was reasonable and that
§ 2254 relief was unavailable because Durall had not
shown an unreasonable application of Supreme Court
precedent. Id.
Similarly, the jury in Gouveia’s case could have
changed its mind at the time it announced that it had
reached a verdict (and at the time the mistrial was declared). Its verdict form indicating an acquittal therefore does not trigger double jeopardy protections.1
C. The Mistrial Was Not Supported By
Manifest Necessity.
This court’s analysis does not end with its determination that the verdict was not final. Gouveia additionally argues that the mistrial was not supported by
“manifest necessity.” This court agrees.
Hawaii state law provides that, “[w]hen circumstances arise that could influence the impartiality of
1

This court need not address here the hypothetical situation
in which a judge refuses to receive a verdict for an improper motive. There is no suggestion that the judge presiding over
Gouveia’s trial had any improper motive.

App. 63
the jury and thus affect the ability to reach a fair result
based on the evidence, a rebuttable presumption of
prejudice is raised” that supports a determination of
“manifest necessity.” Gouveia, 139 Haw. at 78 384 P.3d
at 854. “To overcome such a presumption, the trial
court, after investigating the totality of the circumstances, must find that the outside influence on the
jury was harmless beyond a reasonable doubt.” Id.
The Hawaii Supreme Court viewed the issue in
Gouveia’s case as being “whether the circuit court
abused its discretion in finding that the presumption
was not proven harmless beyond a reasonable doubt
and no reasonable alternative to declaring a mistrial
existed.” Id. at 78-79, 384 P.3d at 854-55. That is, the
Hawaii Supreme Court, determining that the jurors’
concerns about the glaring man raised a rebuttable
presumption of prejudice, applied a two-pronged test.
First, it examined whether the trial court had found
that the outside influence on the jury was harmless beyond a reasonable doubt. Second, if the influence was
not proven harmless beyond a reasonable doubt, it required the trial court to look at all reasonable alternatives to cure the harm before declaring a mistrial. Id.
at 78, 384 P.3d at 854.
Although this court discusses the first prong of the
above issue (going to the presumption), its focus in the
discussion below is primarily on the second prong (reasonable alternatives to a mistrial).
As the Hawaii Supreme Court noted, upon receipt
of the jury note concerning the menacing man, both

App. 64
counsel and the trial judge recognized the possibility
of an improper influence and agreed that the jurors
should be individually questioned. The Hawaii Supreme Court said:
the jury communication in the instant case
was a statement that the jurors were actually
concerned for their safety, not merely inquiring into the possibility of danger. Additionally,
at least four jurors stated that the discussions
of the incident and potential danger happened
at the beginning of deliberations, which indicates those discussions could have had an effect on the subsequent jury deliberations.
Under these circumstances, the circuit court
was well within its discretion to conclude that
under the totality of the circumstances, the
outside influence was not harmless beyond a
reasonable doubt.
Id., 139 Haw. at 80, 384 P.3d at 856.
This court does not agree with Gouveia that the
state courts’ presumption analysis is constitutionally
flawed. The jurors agreed that the menacing man was
discussed after the verdict was reached. But the jurors
also generally agreed that the matter was discussed
before the verdict was reached. At least three of the jurors indicated that the jury discussed the menacing
man (the outside influence) as soon as they started deliberations. Ms. Wilcox, for example, stated that the
man was discussed in the beginning for about five
minutes. ECF No. 13-3, PageID #s 358-59. Ms. Hanashiro stated that the man was discussed as soon as

App. 65
deliberations started for about ten minutes. Id.,
PageID #s382-84. Mr. Chandler told the court that the
man was discussed early on for a minute or so. Id.,
PageID #s 382-84. Ms. Chun similarly indicated that
the man was discussed as soon as the jury went into
the deliberation room, or possibly in the “early middle”
of deliberations. Id., PageID #s 430-31. Ms. Li also said
the man was discussed in the “middle-early” of deliberations.” Id., PageID # 389. Mr. Valencia, unidentified
Juror #7, and Ms. Kama each indicated that the man
was discussed toward the end of deliberations. Id.,
PageID #s 354, 394, 422, and 425. This means that
eight of the twelve jurors remembered discussing the
menacing man before the verdict was reached, with
five of them indicating that it was so important that he
was discussed in the beginning or in the early-middle
of deliberations. Only four jurors (Ms. Boehm, Ms. Foster, Mr. Masuno, and Ms. Mau) indicated that the menacing man was not discussed until after the verdict
was reached. Id., PageID #s 365, 373, 375, 411-12, and
417.
When combined with the jury’s sending of a note
indicating that the jurors were actually concerned
about their safety, the jurors’ indications that they discussed the menacing man during deliberation supports the finding that they may have been afraid for
their safety while deliberating. Ms. Wilcox, for example, said a few jurors were scared. ECF No. 13-3,
PageID 360. Ms. Hanashiro said a few jurors were intimidated and concerned. Id., PageID # 386. Mr. Valencia, Ms. Boehm, Ms. Foster, Ms. Li, Mr. Masuno, and

App. 66
Ms. Kama each said the jurors were concerned for their
safety. Id., PageID #s 356, 366, 370, 374, 377, 392, 41415, and 426. Additionally, Ms. Kama testified that she
thought the safety concern affected the jury’s decision.
Id., PageID # 426. The trial judge “was well within [his]
discretion to conclude that under the totality of the circumstances, the outside influence was not harmless
beyond a reasonable doubt.” Gouveia, 139 Haw. at 80,
384 P.3d at 856; see also Parker v. Gladden, 385 U.S.
363, 366 (1966) (stating that defendant has right to be
tried by twelve impartial jurors).
This court recognizes that there are problems inherent in accepting the trial judge’s determination
that the verdict was tainted by the jurors’ fear. After
all, a safety concern does not automatically taint a verdict. And here, there are specific circumstances raising
questions about whether the verdict was tainted.
First (and most notable), the jurors voted to acquit! To the extent they thought the glaring man was
associated with the prosecution, any fear they had
would only have arisen with an acquittal. As it turns
out, the glaring man was the decedent’s brother who
would have only been upset with an acquittal. See
Memorandum in Support of Section 2254 Petition at 3,
ECF No. 2, PageID # 12; Transcript of Proceedings
(Sept. 6, 2013) at 59-60, ECF No. 13-3, PageID #s 35253 (indicating that decedent’s brother had shaved head
and was upset while in courtroom). That the jurors
voted to acquit is extraordinary evidence that they
were not affected by fear, as very clearly laid out by the

App. 67
dissenting jurists in the ICA and Hawaii Supreme
Court in Gouveia’s state court proceedings.
Second, while not all the jurors said that they associated the glaring man with a particular party, those
jurors that did draw such an association thought he
was favorable to the prosecution and hostile to
Gouveia. Ms. Foster associated the man with the prosecution and said she had a concern for her safety. See
Id., PageID #s 374-75. Ms. Foster added that the concern “was once the verdict was read, that maybe there
would be some retaliation against, you know, of us for
whatever reason just being a juror.” See Id., PageID
# 377. Ms. Li associated the man with the prosecution
and indicated that there was “maybe a little” concern
after the jury had reached a decision. See Id., PageID
# 392. Juror # 7 indicated that the man had directed
his anger toward the defendant, not the jury, and was
not concerned about safety. See Id., PageID # 393. Juror # 7 indicated that one of the jurors wondered
whether the man’s anger might be directed to the jury
“after everything’s done.” See Id., PageID # 394.
Third, notwithstanding their expressions of fear,
eleven of twelve jurors indicated that any such fear
had no effect on their decision. Although the trial judge
couched his determination as to the impact of the glaring man on what he called “credibility” findings, nothing in the record identifies facts supporting his finding
that the jurors were not believable when they said that
the man did not affect their decision. The trial judge
makes no reference to any juror’s demeanor. He just
says, “It frankly beggars my reason and common sense

App. 68
that it would have no bearing on the deliberations in
this case and therefore the verdict.” ECF No. 13-3,
PageID # 452. Whether this is a true “credibility” finding is unclear; it may instead be an assumption.
But this court sees no need to rely on these
acknowledged problems with the conclusion that the
jurors were affected.2 To this court, the more conspicuous problem is that there was a readily available alternative to a mistrial. See Arizona, 434 U.S. at 514;
Sanders, 591 F.2d at 1296; ECF No. 13-3, PageID # 176.
State law on reasonable alternatives in the double
jeopardy context does not diverge from federal law in
requiring an examination of reasonable alternatives to
a mistrial. Indeed, the Hawaii Supreme Court expressly recognized the need for the trial judge to have
considered alternatives in Gouveia’s case. The Hawaii
Supreme Court, noting that the jury had reached a verdict and notified the court that there was a concern
about juror safety, held, “Under these circumstances,
2

The majority in the ICA’s Gouveia opinion notes in a footnote that, because Gouveia did not argue in either the trial court
or the ICA that the trial judge had “erred in failing to consider
options less severe that [sic] mistrial,” the ICA had “no basis for
concluding” that the trial judge had erred in that regard. 2015 WL
2066780, at *10 n.5. This court nevertheless examines whether
the trial judge had options short of a mistrial. While cognizant
that the ICA statement might raise a possible procedural default
issue, this court is relying on the Hawaii Supreme Court opinion
that makes clear its understanding that the issue of alternatives
to a mistrial was indeed before it. The Hawaii Supreme Court’s
majority opinion in Gouveia includes a section headed “No reasonable alternative to a mistrial would have eliminated the potential of prejudice.” 139 Haw. at 80-81, 384 P.3d at 856-57.

App. 69
the circuit court determined that the verdict was already tainted and that neither a continuance nor additional jury instructions to ignore the outside influence
would have been effective. This determination was reasonable.” 139 Haw. at 80, 384 P.3d at 856.
The problem this court identifies with the Hawaii
Supreme Court’s conclusion in this regard is that it is
based entirely on the trial judge’s statement that
“there is no other remedy short of a mistrial to cure the
issue at hand as neither a continuance not [sic] a further jury instruction would appropriately address the
issue of an impartial jury and its subsequent tainted
verdict.” See id. at 79, 384 P.3d at 855. Nothing in the
record suggests that either the trial judge or the state
appellate courts considered any possible instruction at
all. The trial judge made an assertion unaccompanied
by explication of any sort, and the state appellate
courts accepted the assertion without really examining
it.
The admonition that all reasonable alternatives
be considered requires more than an assertion. Finding a manifest necessity is a hugely consequential matter that requires a more searching process. Otherwise,
the “reasonable alternatives” prong becomes meaningless. It becomes a foregone conclusion that there is no
reasonable alternative once the prejudice is not rebutted. In fact, at one point the Hawaii Supreme Court
suggested as much, saying that “the circuit court was
well within its discretion to conclude that manifest necessity existed for a mistrial because the presumption
of prejudice was not overcome beyond a reasonable

App. 70
doubt.” Id. Although the Hawaii Supreme Court then
went on to note the need to examine reasonable alternatives separately, that discussion was cursory and
nearly pro forma, consisting primarily of accepting the
trial judge’s statement that no reasonable alternative
existed. While there are undeniably situations in
which there is no reasonable alternative to a mistrial
(and this court confesses to having determined that itself in a trial), something more than the existence of
prejudice is required for a mistrial.
Citing Hogan v. Dunkerley, 579 F.2d 141 (2d Cir.
1978), the Ninth Circuit in Sanders said that a mistrial
cannot be said to have been manifestly necessary when
a trial judge has failed to adequately consider alternatives to the mistrial. Id. at 1299. In the Second Circuit’s
Dunkerley case that the Ninth Circuit relied on, the
trial court had sua sponte declared a mistrial over a
defendant’s objections after learning that the defendant had to be hospitalized for seven to ten days because
of a collapsed lung. 579 F.2d at 143-44. The Second Circuit, noting that such continuances were “commonplace in many jurisdictions,” held that, because the
trial court had not explained why a continuance was
not feasible, there was no manifest necessity to declare
a mistrial. Id. at 147-48 (stating that “the apparent
availability of at least one alternative to a mistrial,”
specifically, “adjourning the trial for 7 to 10 days[,]
leads us to conclude that a mistrial was not a ‘manifest
necessity’ ”). Under both federal and Hawaii law, if a
reasonable alternative to a mistrial existed that

App. 71
adequately addressed the potential of prejudice, double jeopardy protections now prevent Gouveia’s retrial.
This trial judge is hugely sympathetic to the dilemma facing Gouveia’s trial judge at the time the mistrial was declared. The trial judge acted deliberately,
taking care to consult with counsel and to hear from
each juror. He then concluded that nothing short of a
mistrial could cure the effect of the menacing man, and
the Hawaii Supreme Court agreed. But there was at
least one “commonplace” thing the trial court could
have tried before reaching that conclusion. This “commonplace” measure, if successful, would have preserved Gouveia’s right to have the charges decided by
the first jury empaneled.
Critical to the availability of this remedy is the
status of the “sealed verdict” as not “received” or final.
That status meant that the trial judge could have done
a brief investigation into the glaring man and could
then have called the jury back into court and assured
the jury that his inquiries caused him to conclude that
the jurors’ security was being properly addressed or
that there was no safety threat. For example, the trial
judge could have told the jury that the court had identified the man with the shaved head who was whistling
and glaring. Even if this required a short continuance,
the trial judge could have told the jury that he or security officers had admonished the man and concluded
that he posed no safety risk to the jurors now or in the
future. The trial judge could then have sent the jurors
back into the deliberation room to continue their deliberations armed with these assurances. He could have

App. 72
told the jurors that they could reach the same result
and even use the same verdict form if, upon further deliberation, they came to the same conclusion, while
also providing a blank verdict form for them to use in
case they changed their decision. This would have been
similar to the trial judge’s initial plan to talk to the
jurors about the incident after receiving the verdict.
See ECF No. 13-3, PageID # 349.
Trial judges often, upon receipt of jury questions,
address jury concerns and questions in open court before sending the jury back to deliberate. In United
States v. Ivester, 316 F.3d 955 (9th Cir. 2003), jurors had
communicated while evidence was being presented
that they were concerned about the lack of security in
the courtroom, given the large number of scary-looking
people in the audience. The jury was told in open court
that many of those people were actually United States
Marshals in plainclothes and that the jurors should
not be concerned for their safety. The jurors ultimately
found the defendant guilty, and the judgment was affirmed.
As noted earlier in the present order, the verdict
in Gouveia’s trial was not final. This means that the
trial judge still had an opportunity to remedy the situation. In declaring a mistrial without even considering
the lesser, “commonplace” action of alleviating the jurors’ safety concern through information and/or instructions, the trial judge committed a constitutional
error. The record does not show why the preceding
“commonplace” cure could not have entirely addressed
any harm.

App. 73
There were, of course, other possible alternatives.
Had the trial judge been concerned that the outside influence might have caused the jurors to return a guilty
verdict, as it appeared that the man was threatening
Gouveia, the trial judge could have adopted a bifurcated procedure. Before looking at the verdict, he could
have said that, if the verdict was guilty, he would declare a mistrial because he could not say beyond a reasonable doubt that the influence of the man was not
harmless, but, if the verdict was not guilty, then he
would receive the verdict because the influence would
have been harmless beyond a reasonable doubt.
This court is at pains to avoid simply disagreeing
with the trial judge’s determination that there was
nothing short of a mistrial that could have remedied
the menacing man’s influence on the jury. Well aware
that actions contemplated after the fact may not fall
within what is reasonably considered at the time, this
court has focused its attention on what is “commonplace.” Given the importance of Gouveia’s federal double jeopardy rights, the court is simply unable to ignore
an obvious, “commonplace” cure that was clearly available to the trial judge in light of the nonfinal nature of
the verdict. At the very least, reasonable alternatives
had to be considered, not declared unavailable out of
hand. Under these circumstances, this court rules that
the trial judge violated Gouviea’s double jeopardy right
in declaring that a mistrial was supported by manifest
necessity. Gouveia may not be retried for manslaughter in violation of section 707-702(1)(a) of Hawaii Revised Statutes. See United States v. Jorn, 400 U.S. 470,

App. 74
487 (1971) (stating that double jeopardy prevents retrial when trial court abuses discretion in declaring
mistrial).
VI. CONCLUSION.
The court grants Gouveia’s habeas petition under
§ 2241, ruling that his federal right to be free of double
jeopardy will be violated by a retrial under the circumstances presented here. The Clerk of Court is directed
to enter judgment in favor of Gouveia and to close this
case.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, August 25, 2017
[SEAL]

/s/ Susan Oki Mollway
Susan Oki Mollway
United States District Judge

App. 75
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ROYCE C. GOUVEIA,

No. 17-16892

Petitioner-Appellee,

D.C. No. 1:17-cv00021-SOM-KJM
v.
District of Hawaii,
NOLAN P. ESPINDA, Warden, Honolulu
Director of the Department of
ORDER
Public Safety for the State of
Hawaii; DOUG CHIN, Attorney (Filed Jul. 23, 2019)
General of the State of Hawaii,
Respondents-Appellants.
Before: WARDLAW, BERZON, and RAWLINSON, Circuit Judges.
The panel has unanimously voted to deny appellant’s [sic] petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35. The petition for rehearing en banc is DENIED.

App. 76
KEITH M. KANESHIRO 2027
Prosecuting Attorney
KRISTINE YOO 7845
Deputy Prosecuting Attorney
City and County of Honolulu
1060 Richards Street, 10th Floor
Honolulu, Hawai‘i 96813
Ph: (808) 768-6408
FAX: (808) 768-7513
Attorneys for State of Newell
IN THE CIRCUIT COURT OF THE FIRST CIRCUIT
STATE OF HAWAI‘I
STATE OF HAWAI‘I
v.
ROYCE C. GOUVEIA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CR NO. 12-1-1474
MANSLAUGHTER
(§707-702(1)(a), H.R.S.)
FINDINGS OF FACT,
CONCLUSIONS OF LAW
AND ORDER GRANTING
STATE’S ORAL MOTION
FOR MISTRIAL BASED
ON MANIFEST
NECESSITY

FINDINGS OF FACT, CONCLUSIONS
OF LAW AND ORDER GRANTING STATE’S
ORAL MOTION FOR MISTRIAL BASED
ON MANIFEST NECESSITY
(Filed Oct. 22, 2013)
State of Hawaii’s (hereinafter “State”) oral motion
for mistrial, having come on for hearing on September

App. 77
9, 2013, before the Honorable Glenn J. Kim, the State
being represented by Deputy Prosecuting Attorney
Kristine Yoo, and Defendant Royce C. Gouveia (“Defendant”) being present and represented by Keith
Shigetomi, Esq., and the Court having received evidence, heard argument of counsel, and being fully advised in the premises, makes the following findings. of
fact and conclusions of law:
FINDINGS OF FACT
1.

On October 4, 2012, Defendant was indicted for
Manslaughter under CR 12-1.1474.

2.

A jury trial commenced on September 3, 2013, and
ended on September 6, 2013. The jury was given
the case for deliberation at about 10:35 AM on
September 6, 2013.

3.

On September 6, 2013, while deliberating, the jury
made the following three communications with
the court:
a.

Communication No. 1 – the jury requested a
“layman’s explanation of ‘reckless’ ”;

b.

Communication No. 2 – the jury expressed
concern for their safety;
“Concern: This morning on the prosecutor’s
side of courtroom there was a man, shaved
head, glaring and whistling at defendant. We
have concern for our safety as jurors.”

c.

Communication No. 3 – the jury informed the
court and counsel that a unanimous decision
had been reached;

App. 78
4.

On September 6, 2013, Communication No. 2 and
No. 3 were given to the Court at the same time.
Communication No. 2 was dated and timed at
1424 hours and Communication No. 3 was dated
and timed 1420 hours (out of order).

5.

Based on Communication No. 2, both parties requested the court to individually voir dire the jurors regarding the communication.

6.

All twelve jurors were individually questioned on
September 6, 2013, and September 9, 2013, by
both the Court and parties specifically about Communication No. 2. Special precautions were taken
to ensure no juror revealed the verdict during the
individual voir dire.

7.

The Court questioned the jurors individually and
both counsel for the State and for Defendant were
given adequate opportunity to question each juror
regarding Communication No. 2.

8.

Four jurors witnessed an individual seated on the
prosecutor’s side of the courtroom whistling and/or
glaring at Defendant (“incident”) prior to commencing deliberation.

9.

Seven of the jurors indicated discussion of the incident occurred before the verdict, ranging from
within ten minutes of commencing deliberation to
the end of deliberation. At least four of these seven
jurors indicated discussion of the incident occurred at the beginning of deliberations, specifically that it was one of the first topics discussed.

10. During the discussion of the incident prior to verdict, the jurors who actually observed the incident

App. 79
communicated to the other jurors fear for their
own safety.
11. Some of the juror answers regarding Communication No. 2 and the incident included the following:
a.

Some jurors were worried about retaliation;

b.

The unidentified male’s look appeared hostile
during the incident;

c.

Some jurors were concerned;

d.

Some jurors felt intimidated; and

e.

The incident impacted other jurors’ decisions.

12. Although all twelve jurors indicated that neither
the incident itself nor the discussion regarding the
incident during the deliberations affected their
own decision, at least one juror indicated that the
incident appeared to have impacted the deliberation process and decision.
13. The incident was not part of the evidence in the
case at hand.
14. The verdict was never taken for this case. At no
point during the proceedings did the Court take,
read or otherwise get any indication of the jury’s
verdict.
15. The Court finds that the jurors’ statements that
the incident did not affect their decision-making
process and/or deliberations are not credible as evidenced by the plain language of Communication
No. 2 and answers of the voir dire of each individual juror.

App. 80
16. The Court further finds that the concern for personal safety as expressed by the jurors had an impact on the jurors’ decisions based on the totality
of the circumstances present and thus its effect on
the subsequent verdict was not harmless beyond a
reasonable doubt.
CONCLUSIONS OF LAW
1.

This issue is of first-impression. Although there is
no specific juror misconduct, based on the facts
and circumstances of the situation, the wellestablished “harmless beyond a reasonable doubt”
standard is adopted.

2.

“As a general matter, the granting or denial of a
motion for new trial is within the sound discretion
of the trial court and will not be disturbed absent
a clear abuse of discretion. The same principle is
applied in the context of a motion for new trial
premised on juror misconduct. The trial court
abuses its discretion when it clearly exceeds the
bounds of reason or disregards rules or principles
of law or practice to the substantial detriment of a
party litigant.” State v. Furutani, 76 Hawai‘i 172,
178-79, 873 P.2d 51, 57-58 (1994).

3.

“The sixth amendment to the United States Constitution and article I, section 14 of the Hawai‘i
Constitution guarantee the criminally accused a
fair trial by an impartial jury. If any juror was not
impartial, a new trial must be granted. However,
not all juror misconduct necessarily dictates the
granting of a new trial. A new trial will not be
granted if it can be shown that the jury could not
have been influenced by the alleged misconduct.”

App. 81
(Emphasis added) State v. Kim, 103 Hawai‘i 285,
290-91, 81 P.3d 1200, 1205-06 (2003); see State v.
Gabalis, 83 Hawai‘i 40, 45, 924 P.2d 534, 539
(1996).
4.

“Where the trial court does determine that such
alleged deprivation is of a nature which could substantially prejudice the . . . right to a fair trial, a
rebuttable presumption of prejudice is raised. The
trial judge is then duty bound to further investigate the totality of circumstances surrounding the
alleged deprivation to determine its impact on
jury impartiality. The standard to be applied in
overcoming such a presumption is that the alleged
deprivation must be proved harmless beyond a
reasonable doubt.” State v. Bailey, 126 Hawai‘i 383,
400, 271 P.3d 1142, 1159 (2012); see Furutani, 76
Hawai‘i at 177, 873 P.2d at 56.

5.

Communication No. 2 raised the concern of the
Court and both counsel that the incident may have
substantially prejudiced the right to a fair trial.
After further investigating the totality of circumstances surrounding Communication No. 2, the
Court concluded at least some of the jurors were
not credible, although explicitly indicated they
were not lying. The Court’s concern is that
although all twelve jurors unanimously agreed to
release Communication No. 2, no juror admitted
that the incident affected their own decision making process. Furthermore, reason and common
sense dictates that the incident did have an effect
on the deliberations hence the impartiality of the
jurors, which is not harmless beyond a reasonable
doubt

App. 82
6.

Communication No. 2 and the underlying incident
could not be proven harmless beyond a reasonable
doubt.

7.

“[T]he trial court must grant a motion for new trial
if any member (or members) of the jury was not
impartial; failure to do so necessarily constitutes
an abuse of discretion.” State v. Sugiyama, 71 Hawai‘i 389, 391, 791 P.24 1266, 1267 (1990).

8.

Under the totality of the circumstances in light of
the plain language of Communication No. 2 and
the voir dire of the individual jurors, the Court
finds that the jury was not impartial in their deliberation and decision-making process. Based on
the foregoing, there is no other remedy short of a
mistrial to cure the issue at hand as neither a continuance nor a further jury instruction would appropriately address the issue of an impartial jury
and its subsequent tainted verdict.

9.

“Even in the absence of a defendant’s express or
implied consent to a mistrial, principles of double
jeopardy pose no bar to reprosecution after discharge of a jury if there was a manifest necessity
for the mistrial, or the ends of public justice would
otherwise be defeated. Manifest. necessity is defined as a sudden and overwhelming emergency
beyond [the] control of [the] court and unforeseeable[, under circumstances in which] it becomes no
longer possible to conduct [the] trial or to reach a
fair result based upon the evidence.” State v.
Ouitog, 85 Hawai‘i 128, 143, 938 P.24 559, 574
(1997); State v. Minn., 79 Hawaii [sic] 461, 903 P.2d
1282 (1995).

App. 83
10. The incident underlying Communication No. 2
was both beyond the court’s control and unforeseeable. Accordingly, based on Communication No. 2,
and the totality of the circumstances, there is
manifest necessity for a mistrial.
ORDER
ACCORDINGLY IT IS HEREBY ORDERED that
the State’s oral motion for mistrial based on manifest
necessity be and the same is hereby granted.
Dated at Honolulu, Hawai‘i: OCT 22 2013.
THE HONORABLE GLENN J. KIM Judge of the
above entitled court
/s/

Glenn J. Kim
THE HONORABLE GLENN J. KIM
Judge of the above entitled court

APPROVED AS TO FORM:
/s/ Keith Shigetomi
KEITH SHIGETOMI, ESQ.
Attorney for Defendant

App. 84
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
ROYCE C. GOUVEIA,
Petitioner,
vs.
NOLAN ESPINDA,
Director of the
Department of Public
Safety for the State of
Hawaii; and DOUG
CHIN, Attorney General
of the State of Hawaii,
Respondents.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civ. No.
17-00021 SOM/KJM
ORDER ENJOINING
REPROSECUTION OR
RETRIAL OF GOUVEIA;
ORDER DIRECTING
STATE COURT TO
DISMISS PENDING
CRIMINAL CASE WITH
PREJUDICE AND TO
RELEASE GOUVEIA
FROM ALL CONDITIONS
OF SUPERVISED
RELEASE;
ORDER STAYING
ORDER DIRECTING
STATE COURT TO
DISMISS PENDING
CRIMINAL CASE
WITH PREJUDICE;
ORDER GRANTING
CERTIFICATES OF
APPEALABILITY

ORDER ENJOINING REPROSECUTION
OR RETRIAL OF GOUVEIA;
ORDER DIRECTING STATE COURT
TO DISMISS PENDING CRIMINAL CASE
WITH PREJUDICE AND TO RELEASE

App. 85
GOUVEIA FROM ALL CONDITIONS
OF SUPERVISED RELEASE;
ORDER STAYING ORDER DIRECTING
STATE COURT TO DISMISS PENDING
CRIMINAL CASE WITH PREJUDICE;
ORDER GRANTING
CERTIFICATES OF APPEALABILITY
I.

INTRODUCTION.

On August 25, 2017, this court issued an Order
Granting Habeas Petition pursuant to 28 U.S.C.
§ 2241. See ECF No. 22. Judgment in favor of Petitioner Royce C. Gouveia was entered the same day. See
ECF No. 23.
On August 29, 2017, Gouveia sought to amend the
order and judgment pursuant to Rule 60(a) of the Federal Rules of Civil Procedure. See ECF No. 24. That motion is granted in part. The court clarifies here its
earlier ruling.
First, the State of Hawaii is enjoined from reprosecuting or retrying Gouveia for the manslaughter
charge at issue in the state court criminal case numbered 1PC121001474. Second, the court orders the
State of Hawaii to dismiss with prejudice the state
court criminal case against Gouveia numbered
1PC121001474 and orders that he be relieved of all
conditions of supervised pretrial release. Third, the
court stays the order requiring dismissal of the criminal case until such time as this case becomes final,
meaning that all appeals of this court’s orders and

App. 86
judgment have been adjudicated. The court also grants
the parties a certificate of appealability to allow them
to appeal this court’s determination that the mistrial
was not supported by manifest necessity and that the
sealed jury verdict was not a final verdict for double
jeopardy purposes.
II.

RULE 60(a) STANDARD.
Rule 60(a) provides:
The court may correct a clerical mistake or a
mistake arising from oversight or omission
whenever one is found in a judgment, order, or
other part of the record. The court may do so
on motion or on its own, with or without notice. But after an appeal has been docketed in
the appellate court and while it is pending,
such a mistake may be corrected only with the
appellate court’s leave.

Fed. R. Civ. P. 60(a). Rule 60(a) may not be the only vehicle for the clarification Gouveia seeks; Gouveia possibly could have sought relief under Rule 59 or Rule
60(b) of the Federal Rules of Civil Procedure. Still, Rule
60(a) does allow this “court to clarify a judgment in order to correct a failure to memorialize part of its decision, to reflect the necessary implications of the
original order, to ensure that the court’s purpose is
fully implemented, or to permit enforcement.” Tattersalls, Ltd. v. DeHaven, 745 F.3d 1294, 1298 (9th Cir.
2014) (quotation marks and citation omitted).

App. 87
III. ANALYSIS.
Gouveia’s § 2241 motion asked this court to “order
that the State of Hawaii give effect to the jury’s acquittal, enter judgment in accordance with that verdict,
and dismiss Cr. No. 12-1-1474 with prejudice, and
grant any other relief to which the petitioner is entitled.” ECF No. 1, PageID # 8.
In its order of August 25, 2017, this court granted
Gouveia’s § 2241 motion, stating that “Gouveia may
not be retried fo [sic] manslaughter in violation of section 707-702(1)(a) of Hawaii Revised Statutes.” ECF
No. 22, PageID # 644.
On August 29, 2017, Gouveia moved under Rule
60(a) for clarification of the court’s order, arguing that
this court had not explicitly barred any retrial of
Gouveia for manslaughter, had not ordered the dismissal of the state-court proceedings with prejudice, and
had not ordered the state to immediately release
Gouveia from all pretrial release conditions imposed
on him. See, e.g., ECF No. 24, PageID # 647. This court
grants the motion in part, ruling that the following
clarification reflects the necessary implications of the
court’s order of August 25, 2017, and ensures that the
purpose of granting relief to Gouveia is fully implemented, while preserving the rights of the parties to
appeal. See Tattersalls, 745 F.3d at 1298.
This court believes that its original order was sufficiently clear that the State of Hawaii cannot retry
Gouveia on the same manslaughter charge. This court
has no reason to believe that the State of Hawaii will

App. 88
flout this court’s order. Nevertheless, an examination
of the state court docket sheet indicates that Gouveia’s
retrial is still set to begin on September 25, 2017, with
“trial call” set for September 19, 2017. See Docket
Sheet, available through eCourt KōKua on the Hawaii
State Judiciary website, www.courts.state.hi.us (input
CaseID 1PC121001474 under “Case Search” after entering eCourt KōKua) (last visited September 12,
2017). This court therefore explicitly clarifies its earlier order and enjoins the State of Hawaii from reindicting or retrying Gouveia on the manslaughter
charge at issue in case number 1PC121001474. Absent
a stay or reversal of this court’s order by an appellate
court, the manslaughter charge at issue in case number 1PC121001474 may not proceed.
Gouveia also asks this court to clarify that the
State of Hawaii must dismiss the pending criminal
case with prejudice. While dismissal is an automatic
consequence of this court’s double jeopardy ruling, the
immediate dismissal of the state court criminal case
with prejudice could make a nullity of the appeal Respondents indicate they will take from this court’s order and judgment. See ECF No. 26, PageID # 658. If
this court were to order the immediate dismissal of the
criminal case with prejudice, the passage of time during the pendency of the appeal could create a statute
of limitations issue if Respondents prevail on appeal
and the State of Hawaii seeks to reindict or retry
Gouveia on the manslaughter charge. Accordingly,
while the court orders the State of Hawaii to dismiss
the manslaughter case against Gouveia in case

App. 89
number 1PC121001474 with prejudice, this court stays
that order to allow the appellate court(s) to rule on the
correctness of this court’s order and judgment. If this
court’s order and judgment become final by being affirmed, this stay shall automatically be lifted, and the
State of Hawaii must immediately dismiss with prejudice the manslaughter charge asserted in case number
1PC121001474.
Gouveia also asks this court to clarify that the
State of Hawaii must release him from the conditions
of his supervised pretrial release. This court agrees
that, unless the State of Hawaii obtains a stay of this
part of the court’s order from the Ninth Circuit Court
of Appeals, the State of Hawaii must relieve Gouveia
of the terms of his supervised pretrial release. This
court declines to stay this part of the order.
The Clerk of Court is directed to send a certified
copy of this order with a notation that it pertains to
Hawaii v Gouveia, 1PC121001474, to counsel of record
and to: 1) Circuit Court Judge Glenn J. Kim, First Circuit Judge, 777 Punchbowl Street, Honolulu, Hawaii
96813; 2) Kristine Yoon Yoo, Esq., Dept. of the Prosecuting Attorney, 1060 Richards Street, Honolulu, HI
96813; and 3) Keith S. Shigetomi, Esq., Pacific Park
Plaza, 711 Kapiolani Boulevard, Ste. 1440, Honolulu,
HI 96813.

App. 90
IV. THE COURT GRANTS CERTIFICATES OF
APPEALABILITY.
Under 28 U.S.C. § 2253(c)
(c)(1) Unless a circuit justice or judge issues
a certificate of appealability, an appeal may
not be taken to the court of appeals from–
(A) the final order in a habeas corpus
proceeding in which the detention complained
of arises out of process issued by a State court;
or
(B) the final order in a proceeding under
section 2255.
(2) A certificate of appealability may issue
under paragraph (1) only if the applicant has
made a substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under
paragraph (1) shall indicate which specific issue or issues satisfy the showing required by
paragraph (2).
28 U.S.C.A. § 2253(c).
It is not clear whether only Gouveia needs a certificate of appealability to appeal this court’s determination or whether Respondents also need such a
certificate. To ensure that each party’s rights are safeguarded, this court grants, to the extent required, Respondents a certificate of appealability to appeal this
court’s orders and judgment based on this court’s determination that the mistrial was not supported by
manifest necessity. In so doing, this court recognizes

App. 91
that reasonable jurists could find this court’s determination debatable or wrong. See Slack v. McDaniel, 529
U.S. 473, 484 (2000).
Although Gouveia prevailed on the merits of his
double jeopardy claim, he did not prevail on each of the
grounds he raised in his § 2241 motion. In case
Gouveia needs a certificate of appealability to challenge rulings on grounds rejected by this court, see Jennings v. Stephens, 135 S. Ct. 793, 798 (2015), this court
grants him a certificate of appealability with respect to
arguments rejected by this court (e.g., that the sealed
state-court verdict was a final verdict for purposes of
the Double Jeopardy Clause). This court recognizes
that reasonable jurists might find this court’s rejection
of Gouveia’s arguments debatable or wrong. See id.
For example, in footnote 1 of the present motion,
Gouveia argues that “this [c]ourt’s concern about the
lack of polling is misplaced.” ECF No. 24 n.1, PageID
# 649. Although this court did not say that polling was
a prerequisite to rendering any verdict final for double
jeopardy purposes, it did reason that the unpolled jurors could have changed their minds such that the
sealed verdict in Gouveia’s manslaughter trial was not
final for double jeopardy purposes. Reasonable jurists
could disagree on this point.
In his Rule 60(a) motion, Gouveia posits for the
first time that, because the state trial court individually voir dired jurors regarding whether the menacing
man affected the verdict, that was tantamount to polling the jury. See id. Asking whether the menacing man
affected the verdict is not the same as asking whether

App. 92
the verdict reflected each juror’s decision. This court
also recognizes that reasonable jurists could disagree
with respect to this argument and with respect to
whether the sealed verdict was a final verdict for purposes of the Double Jeopardy Clause.
V.

CONCLUSION.

The court grants Gouveia’s Rule 60(a) motion in
part. The court enjoins the retrial of Gouveia, orders
dismissal of the pending charges with prejudice but
stays the dismissal requirement, orders Gouveia’s
immediate release from supervised pretrial release
conditions, and grants both parties certificates of appealability.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, September 12, 2017.
[SEAL]

/s/ Susan Oki Mollway
Susan Oki Mollway
United States District Judge

Gouveia v. Espinda, et al., Civ. No. 17-00021
SOM/KJM; ORDER ENJOINING REPROSECUTION
OR RETRIAL OF GOUVEIA; ORDER DIRECTING
STATE COURT TO DISMISS PENDING CRIMINAL
CASE WITH PREJUDICE AND TO RELEASE
GOUVEIA FROM ALL CONDITIONS OF SUPERVISED RELEASE; ORDER STAYING ORDER DIRECTING STATE COURT TO DISMISS PENDING
CRIMINAL CASE WITH PREJUDICE; ORDER
GRANTING CERTIFICATES OF APPEALABILITY

App. 93
2004 WL 1816637 (C.A.9) (Appellate Brief )
United States Court of Appeals,
Ninth Circuit.
Steven Donald STOW, Petitioner-Appellee,
v.
Albert MURASHIGE, Warden, Maui Community
Correctional Center, Respondent-Appellant.
No. 03-17036.
July 1, 2004.
APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF HAWAII
The Honorable Susan Oki Mollway
United States District Judge
D.C. CIV. NO. 02-00766 SOM/KSC
(District of Hawaii)
Petitioner-Appellee Steven Donald Stow’s
Supplemental Brief
Peter C. Wolff, Jr., Federal Public Defender, District of
Hawaii, 300 Ala Moana Boulevard, Suite 7104, Honolulu, Hawaii 96850-5269, Telephone: (808) 541-2521,
Facsimile: (808) 541-3545, Attorney for PetitionerAppellee, Steven Donald Stow
*i TABLE OF CONTENTS
TABLE OF AUTHORITIES .................................

ii

ARGUMENT ...........................................................

1

CONCLUSION .......................................................

7

CERTIFICATE OF SERVICE
Note: Table of Contents page numbers missing in
original document ...............................................

App. 94
*ii TABLE OF AUTHORITIES
CASES
Arredondo v. Ortiz, 365 F.3d 778 (9th Cir. 2004) .........4
Hunter v. Ayers, 336 F.3d 1007 (9th Cir. 2002).............4
Jacobs v. McCaughtry, 251 F.3d 596 (7th Cir.
2001) ...................................................................... 1, 2
Mannhalt v. Reed, 847 F.2d 576 (9th Cir. 1988)...........5
McNeely v. Blanas, 336 F.3d 822 (9th Cir. 2003) ..... 1, 5
Rose v. Hodges, 423 U.S. 19 (1975) (per curiam) ..........5
White v. Lambert, ___ F.3d ___, 2004 WL
1276822 (9th Cir. June 10, 2004) .......................... 6, 7
STATUTES
28 U.S.C. § 2241 .............................................. 1, passim
28 U.S.C. § 2254 .............................................. 1, passim
CONSTITUTIONAL PROVISION
Fourteenth Amendment ...............................................6
OTHER AUTHORITY
Antiterrorism and Effective Death Penalty Act
of 1996 ................................................................... 6, 7
Pursuant to this Honorable Court’s request, petitionerappellee, STEVEN DONALD STOW, submits the following brief discussing whether Stow’s federal habeas
petition should be treated as one arising under 28
United States Code (U.S.C.) § 2241 or 28 U.S.C. § 2254.

App. 95
ARGUMENT
This Court’s order directs the parties to consider
McNeely v. Blanas, 336 F.3d 822, 824 n. 1 (9th Cir.
2003), and Jacobs v.McCaughtry, 251 F.3d 596 (7th Cir.
2001). In McNeely, the petitioner – as well as the respondent and, it appears, the district court – characterized his federal habeas petition as “falling under”
§ 2254. McNeely’s federal claim was that the state’s
holding of him in pretrial detention violated his constitutional right to a speedy trial, because no preliminary
hearing had been conducted, and he had not been
brought to trial, within a reasonable period of time. See
McNeely, 336 F.3d at 824. This Court noted that, given
McNeely’s status as a pretrial detainee, he was not “being held ‘pursuant to the judgment of a State court.’ ”
McNeely, 336 F.3d at 824 n.1 (quoting § 2254). As such,
this Court noted that his claim properly fell under
§ 2241 and treated his petition, and its review of the
district court proceedings, as if they had occurred pursuant to § 2241 rather than § 2254. See McNeely, 336
F.3d at 824 n. 1.
The Seventh Circuit’s Jacobs decision is similar in
this respect. The state charged Jacobs with and tried
him upon five counts of first-degree murder; the *2
jury acquitted him, however, on all five counts. See
Jacobs, 251 F.3d at 597. Some four years later, the state
– believing it had “new evidence” warranting a different result – charged Jacobs a second time for the same
predicate incident, under the rubric that it was doing
so for the crimes of kidnaping and false imprisonment.
See Jacobs. 251 F.3d at 597. Exhausting his state

App. 96
remedies prior to being tried a second time, Jacobs filed
a federal habeas petition seeking to bar the second
trial on double jeopardy grounds. See Jacobs. 251 F.3d
at 597. The Seventh Circuit deemed this petition as being “properly classified as a § 2241 petition because it
was filed pretrial and not while he was ‘in custody pursuant to the judgment of a state court.’ ” Jacobs, 251
F.3d at 597 (quoting § 2254).
Stow agrees that, in the ordinary case raising a
pretrial double jeopardy right not to be tried, the claim
should fall under § 2241. This is because, in such ordinary cases, the accused is in pretrial custody pursuant
to a state trial court’s pretrial detention order or the
like. In such cases, no “judgment” – trial not yet having
been had – exists upon which to predicate a § 2254 habeas petition. This is usually so even where, as was the
situation in Jacobs, a first trial has occurred and resulted in a judgment; because, in the ordinary double
jeopardy scenario, that judgment is one of acquittal,
and the State, thereafter, instigates a new proceeding
*3 upon a second indictment or complaint, which, in
turn, generates a new state trial court pretrial detention order of some kind.
Stow’s case, however, is not the usual case. The
State of Hawaii (“the State”) has already tried Stow, as
a result of which it secured a judgment of conviction on
first-degree murder, but the jury acquitted Stow on the
two counts of second-degree murder. On appeal, the
Hawaii Supreme Court reversed the first-degree murder conviction, due to evidentiary insufficiency, but
held that retrial could be had on the two counts of

App. 97
second-degree murder. The Hawaii Supreme Court, accordingly, remanded the matter for retrial on these two
counts.
A new, second indictment was never obtained and,
as such, there is no “pretrial” – or, if you will, “preretrial” – state trial court detention order.1 Stow, *4
rather, remained in the State’s custody pursuant to the
judgment on appeal of the Hawaii Supreme Court.
Since Stow’s petition contested the propriety of the
State’s continued custody of him pursuant to the Hawaii Supreme Court’s judgment on appeal, he invoked
§ 2254 as the basis for his petition, which provides for
federal habeas relief from the “judgment of a state
court” without, moreover, drawing a distinction between judgments on appeal issued by a state appellate
1

Prior to his first trial, Stow was in pretrial custody because
he could not post bail. After conviction, the trial court’s issuance
of the mittimus in conjunction with its judgment of conviction and
sentence obviated any pretrial bail orders. The Hawaii Supreme
Court’s decision to reverse the judgment of conviction, however,
might be said to have implicitly abrogated the issuance of mittimus and, in essence, revived the previous conditions of bail. Indeed, on remand, Stow unsuccessfully sought a reduction of bail.
In a hyper-technical fashion, Stow’s custody prior to the pending
retrial of the second degree murder counts might be attributed to
the state trial court’s order denying a reduction in bail or, that
court’s previous, now implicitly revived, order setting bail in the
first instance. Be that as it may, Stow’s habeas petition did not
seek to set aside these orders nor contend that the bail-related
orders violated the constitution, laws, or treaties of the United
States. And, relatedly, Stow’s custody pending retrial on the two
second-degree murder counts, as discussed above, was not “pursuant” to these bail orders, but, rather, was wholly caused by the
Hawaii Supreme Court’s unconstitutional decision and judgment
on appeal to remand the acquitted counts for retrial.

App. 98
court and judgments of conviction issued by a state
trial court.
In any event, Stow does not believe that – given
the present posture of this case – it makes much difference whether his petition is styled as one arising
under § 2241 or § 2254. Given that relief is warranted
under § 2254’s more difficult standards, any failing to
proceed under § 2241 would appear to be harmless, at
best. Indeed, under both sections, this Court’s review
of the district court’s ruling is de novo. See Arredondo
v. Ortiz, 365 F.3d 778, 781 (9th Cir. 2004) (“[w]e review
a district court’s decision to grant . . . a 28 U.S.C. § 2254
habeas petition de novo”); Hunter v. Avers. 336 F.3d
1007, 1011 (9th Cir. 2002) (“[w]e review de novo the
district court’s decision to grant a 28 U.S.C. § 2241 habeas petition”). What differs, then, is not the standard
of review that this Court applies to the State’s appeal
in the present matter. Rather, the salient difference between a § 2241 habeas petition and *5 one brought under § 2254 is the standard that the district court
applies to grant the writ.
Under § 2254, the district court may only grant
the writ, as is relevant here, if the state court decision
complained of was either contrary to or constituted an
unreasonable application of clearly established federal law as decided by the United States Supreme
Court. In granting Stow the writ, the district court
ruled that this standard was met here. Under § 2241,
on the other hand, the petitioner is entitled to the writ
upon simply showing that he is in custody in violation
of the federal constitution, laws, or treaties. See 28

App. 99
U.S.C. § 2241(c)(3); Mannhalt v. Reed, 847 F.2d 576 (9th
Cir. 1988) (“[t]o prevail on his claim for habeas relief
[under § 2241], Mannhalt must show that his detention violates the Constitution, a federal statute, or a
treaty” (citing § 2241 and Rose v. Hodges. 423 U.S. 19,
21 (1975) (per curiam))). It seems intuitive, if not axiomatic, that if § 2254’s more stringent standards are
met, so, too will habeas relief be warranted under
§ 2241.
The present matter is before this Court on an appeal brought by the State. If this Court is inclined to
hold, as it did in McNeely, that the petition falls under
§ 2241 rather than § 2254, the State’s burden on appeal would seem to become more onerous. Rather than
the questions briefed, which center around whether
the district court was wrong in granting the writ because the Hawaii Supreme Court’s decision *6 was contrary to or an unreasonable application of clearly
established federal law as decided by the United States
Supreme Court, the question under § 2241 would
simply be whether the district court was wrong to issue
the writ because retrying Stow on the two seconddegree murder counts violated the federal constitution’s double jeopardy clause (as applicable to the
states through incorporation in the fourteenth amendment’s due process clause). The latter question, Stow
submits, would be the more difficult one for the State
to persuasively answer in its favor.
This Court’s recent decision in White v. Lambert.
___ F.3d ___ 2004 WL 1276822 (9th Cir. June 10, 2004),
confirms that, at least on the facts of this case.

App. 100
characterizing Stow’s petition as one arising under
§ 2241, rather than under § 2254, only assists Stow in
vindicating his constitutional protection against double jeopardy. In White, this Court held that § 2254 “is
properly seen as a limitation on the general grant of
habeas authority in § 2241,” such that it is “the exclusive vehicle” by which a prisoner in custody pursuant
to the judgment of a state court may obtain habeas relief from a federal court, even if the prisoner’s habeas
claims do not challenge the underlying state court
judgment; in White, a judgment of conviction. White,
2004 WL 1276822 at *6. Hence, a habeas petitioner in
custody pursuant to a state court judgment must meet
the additional, AEDPA-amended requirements that attach to a § 2254 petition. See White, 2004 WL 1276822.
at *2-*7. A habeas petitioner in state *7 custody for
some other reason that is not attributable to a state
court judgment, such as pre-trial custody or detention
pending extradition, may avail himself of § 2241,
thereby alleviating himself of the AEDPA’s stringent
requirements. See White. 2004 WL 1276822, at *2-*7.
Nor, as both McNeely and White evince, is this
Court’s jurisdiction – or that of the district court –
affected by whether the petition is styled one way or
the other. In both McNeely and White, this Court
simply recharacterized the petition’s statutory basis
and thereafter proceeded under the appropriate substantive standards; in neither case did this Court
perceive that it lacked jurisdiction.

App. 101
CONCLUSION
In sum, petitioner-appellee STEVEN M. STOW
submits that it does not make a material difference in
the present matter whether his petition is perceived as
arising under 28 U.S.C. § 2254, as the parties and the
district court have characterized it, or under 28 U.S.C.
§ 2241. In either event, he is entitled to the writ.

App. 102
IN THE CIRCUIT COURT OF THE FIRST CIRCUIT
STATE OF HAWAII
Electronically Filed
Intermediate Court of Appeals
CAAP-14-0000358
31-JAN-2014 11:39 AM
)
)
)
)
)
)

STATE OF HAWAII
vs.
ROYCE C. GOUVEIA,
Defendant.

Criminal No.
12-1-1474

TRANSCRIPT OF PROCEEDINGS
before the Honorable Glenn J. Kim, Judge, Fourth Division, presiding, on September 9, 2013.
JURY TRIAL.
Verdict.
APPEARANCES:
KRISTINE YOO, ESQ.
For the State of Hawaii
ROBERT RAWSON, ESQ.
Deputies Prosecuting Attorney
KEITH S. SHIGETOMI, ESQ.
Court-appointed Attorney

For the Defendant

REPORTED BY
Sharon Hulihee, RPR, CSR 306
Official Court Reporter
State of Hawaii

App. 103
Official Court Reporters
First Circuit Court
State of Hawaii
*

*

[282] THE COURT:
Ms. Yoo?

*

Do you recall that or not,

MS. YOO: Yes, I do recall that. There’s – I note
about three.
THE COURT: Some of them said it came up both
at that point and that it also came up later in the deliberations.
MS. YOO: Right.
THE COURT:
that.

I think two or three people said

MS. YOO: I have three people saying that it came
up towards the beginning of the conversation.
THE COURT:

Okay. You think that’s important?

MS. YOO: Your honor, I do believe that that’s important, especially given what Ms. Hanashiro said was
that it was one of immediately – one of the first things
that had come up as soon as they got back there, that
it was sort of like, hey –
THE COURT: Yeah, I mean, it would seem to imply that it was pretty much – pretty important to at
least some of them, right? I mean, that’s what it implies to me, if it’s one of the earliest topics of discussion
when they get into the room.

App. 104
MS. YOO: And the fact that it again came up
[283] later and the fact that after the verdict that they
felt the need or the need to indicate to the court what
they had discussed from the beginning part. So based
on all of that, your honor, unless the court has any
other questions?
THE COURT: You have any response, Mr.
Shigetomi? I have what I am construing now to be a
motion for mistrial by the State based on manifest necessity to declare that mistrial.
MR. SHIGETOMI:

And we object to it.

THE COURT: Yeah. So I’m giving you a chance
to make a record if you want to.
MR. SHIGETOMI: Well, your honor, the court
addresses or instructs the jury that you are to make
your decision based solely on the evidence in this case.
You listen to the evidence; you follow the court’s instructions; you make a decision. Every one of the jurors
have said it had – there was discussion, but it had no
impact on my decision, all 12.
THE COURT: That’s clearly the strongest argument for me to deny the State’s motion in my view is
that all 12 of them, when I asked them specifically, said
it had no impact on their deliberations. Go on.
MR. SHIGETOMI: And that’s the crux of our argument, that they are presumed to follow instructions.
[284] They all said that they did and therefore the
court should take the verdict at this point in time. It’s
not manifest necessity.

App. 105
THE COURT: Well, if I declare a mistrial based
on the reasons that Ms. Yoo has given me, it’s a nobrainer it’s manifest necessity, right? There’s no – put
it this way. There’s no other remedy short of a mistrial
that’s going to cure this or allow us to take the verdict,
correct? It’s not like we can continue the trial –
MR. SHIGETOMI:
THE COURT:
struction.

I understand.

– or I can give them a further in-

MR. SHIGETOMI:

Correct, correct.

THE COURT: You know, they reached a verdict
already and then they tell me that there was this other
thing. So, you know, if I think it rises to the level of a
mistrial, I’m pretty much going to find that there’s
manifest necessity ‘cause there’s nothing short of a
mistrial that I can do. It’s a tainted verdict, if that’s
going to be my ruling. I mean, you agree with that,
right?
MR. SHIGETOMI:
honor.

I would agree with that, your

THE COURT: Let me ask you this, Mr.
Shigetomi, at the risk of seeming to put you on the spot
*

*

*

